<html>
<title> - IMPLEMENTATION OF THE AVIATION AND TRANSPORTATION SECURITY ACT</title>
<body><pre>[Senate Hearing 107-1128]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1128

                  IMPLEMENTATION OF THE AVIATION AND 
                      TRANSPORTATION SECURITY ACT

=======================================================================

                                HEARING

                               before the

                        COMMITTEE ON COMMERCE, 
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 5, 2002

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                    U.S. GOVERNMENT PRINTING OFFICE
89-681                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia 
BILL NELSON, Florida
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
      Jeanne Bumpus, Republican Staff Director and General Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 5, 2002.................................     1
Statement of Senator Burns.......................................     6
    Prepared statement...........................................     7
Statement of Senator Cleland.....................................     7
Statement of Senator Hollings....................................     1
Statement of Senator Hutchison...................................     3
Statement of Senator Rockefeller.................................     4
    Prepared statement...........................................     5
Statement of Senator Smith.......................................     7
Statement of Senator Snowe.......................................    39
Statement of Senator Wyden.......................................     2
    Article from the Wall Street Journal, dated February 5, 2002 
      entitled, As Deadline Looms, Rush Hasn't Signed Contracts 
      With Airport-Screening Firms...............................    ??

                               Witnesses

Jackson, Hon. Michael P., Deputy Secretary, and Hon. John Magaw, 
  Under Secretary of Transportation for Security, Department of 
  Transportation.................................................     9
    Prepared statement...........................................    11
Mead, Hon. Kenneth M., Inspector General, Department of 
  Transportation.................................................    14
    Prepared statement...........................................    16

 
     IMPLEMENTATION OF THE AVIATION AND TRANSPORTATION SECURITY ACT

                              ----------                              


                       TUESDAY, FEBRUARY 5, 2002

                               U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
SR-253, Russell Senate Office Building, Hon. Ernest F. 
Hollings, Chairman of the Committee, presiding.

         OPENING STATEMENT OF HON. ERNEST F. HOLLINGS, 
                U.S. SENATOR FROM SOUTH CAROLINA

    The Chairman. Alright, the Committee will please come to 
order. We've been trying our best to get an update from the 
Department of Transportation on airline security and airport 
security.
    Let the record show our warm feelings for the Secretary. I 
understand he underwent a hip operation last week. In fact, 
during the joint session when the President was speaking, his 
hip hurt so bad that he had to keep getting up and sitting 
down. The President thought he was cheering him on. But I 
understand it's worked well, he's recovering well, and we 
certainly hope so.
    Be that as it may, we're behind the eight ball in the 
government. We started 9/11, and we immediately started moving 
on this particular measure. And everybody--the record will show 
the witnesses are nodding, because they know, particularly Mr. 
Jackson who'd been there--we've been working on this for a long 
time. We got a hundred votes, all Republicans and all 
Democrats, so it's a bipartisan issue--it's not a partisan 
thing at all.
    But, more particularly, with respect to the scanners--the 
machinery to scan the baggage, for example--we have yet to make 
the orders. We keep studying the problem. I know there's a 
problem. There's a cost problem and there's a placement problem 
and all of these other problems. But with the full 429 
airports--we've got 30 major hubs--they should have been able 
to be redesigned immediately, because if something occurs, we 
in government are going to be held responsible. And it's too 
easy still to come in and bring a baggage bomb on a plane in 
America. And if it just blew up and the plane landed safely, 
that would stop airline travel for months around this country. 
We couldn't afford it. And it's a very, very serious 
proposition, particularly with respect to the travel itself. 
I'll get into that.
    What we're trying to do is expedite the hearing this 
afternoon. I apologize to the Committee, but we couldn't find 
another time. We just filled up. But let me cut all statements 
short and recognize Senator Wyden.

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Mr. Chairman, I'll be very brief. First, I 
commend you for holding this hearing, because I think the only 
way this job's going to get done is by exactly the approach 
you're taking, which is to bird-dog this every single step of 
the way, because the history is if you don't do that, it isn't 
going to happen.
    One of the areas I hope that we'll be able to touch on this 
afternoon, Mr. Chairman, deals with a headline in the paper 
this morning--and we've known that this was coming--and that it 
really appears that we're not making the kind of progress that 
we need to with respect to the contracts with the airport 
screening firms. This is touched on in the Wall Street Journal 
today. It looks like you may have to pay these companies more 
than the entire budget for the Transportation Security 
Administration. I think we've got to get to the bottom of this, 
because if this key aspect of the law isn't addressed in a 
responsible way, it's hard to make the other pieces fall in 
place.
    I would ask unanimous consent, Mr. Chairman, that this 
article from the Wall Street Journal be placed into the record, 
because it does outline the problems that we're having with 
these airport screening firms.
    The Chairman. It'll be included.
    [The information referred to follows:]

              [From the Wall Street Journal, Feb 5, 2002]

         As Deadline Looms, Bush Hasn't Signed Contracts With 
                        Airport-Screening Firms

                           (By Stephen Power)

    Washington.--With less than two weeks to meet a congressional 
deadline for taking over security at the nation's airports, the Bush 
administration hasn't signed any contracts with private companies that 
handle airport security and hasn't determined how it will pay the firms 
during the nine-month transition to a federal work force.
    Officials at the U.S. Transportation Department are wrestling with 
how much to pay the screening companies, some of which are seeking 
steep increases from what airlines have traditionally paid them. 
Although the companies aren't due to submit contract proposals to the 
agency until tomorrow, administration officials say informal estimates 
indicate the government could have to pay the companies as much as $2 
billion this year, more than the entire $1.25 billion budget for the 
new federal transportation-security agency.
    ``They know their contracts [with the airline industry] are going 
to end and that there's very little hope of getting them back in the 
short run,'' said an administration official familiar with the matter. 
``So they're trying to recoup all their costs right up front.''
    The Bush administration is also considering paying airlines to 
oversee security checkpoints at some airports during the transition to 
a federal work force, an arrangement that some critics worry would give 
the carriers undue influence over airport security.
    Under the new Aviation and Transportation and Security Act, signed 
by President Bush last November in the wake of the Sept. 11 terrorist 
attacks, the federal government must assume responsibility for 
screening all airline passengers and luggage for weapons by this 
November. Currently, airlines are responsible for those duties, though 
most contract with private companies to do the actual work, often for 
low wages and with little training for workers.
    The new Transportation Security Administration, which is charged 
with implementing the aviation-security law, plans to gradually hire 
and train 30,000 federal screeners this year, while contracting with 
private companies to staff airport-security checkpoints during the 
transition. The agency has said it plans to assume contracts with those 
companies by Feb. 17.
    An attorney who represents several of the country's largest 
airport-security companies, Kenneth Quinn, declined to comment on 
negotiations between the government and his clients, citing a 
``multitude of complex questions that need to be resolved'' before the 
Feb. 17 deadline. But administration officials familiar with the 
negotiations say some companies have cited increased costs since the 
Sept. 11 attacks, during which their staff levels and hourly wages have 
nearly doubled.
    The new federal aviation-security law gives the Transportation 
Security Administration $1.25 billion during its first year, but much 
of that money must pay for costly bomb-detection machines and the 
hiring of federal air marshals to ride aboard commercial flights.
    One person familiar with the government's negotiations said some 
airport-security firms are concerned about the administration's plan to 
reimburse airlines for the cost of overseeing the screening of 
passengers and luggage during the transition to a federal work force. 
Since Sept. 11, the Federal Aviation Administration has directed 
airlines to assign one of their employees to monitor each screening 
checkpoint, to ensure that security companies follow federal 
procedures.
    ``It's unclear who will be shutting down terminals and concourses 
if you have a major breach in security,'' said this person. With 
airlines continuing to supervise the checkpoints, ``there's the 
possibility of undue pressure to keep things open and not clear 
passengers'' from the terminals in the event of security breaches.
    A spokesman for the Transportation Security Administration, James 
P. Mitchell, declined to comment on whether the agency plans to use 
airlines to supervise airport security checkpoints. Other 
administration officials, who asked not to be identified, said the 
arrangement was needed as a short-term measure while the agency goes 
about hiring new federal security directors at airports, a process that 
is expected to last several months.
    Credit: Staff Reporter of The Wall Street Journal

    The Chairman. And we welcome the distinguished panel. We 
have the deputy secretary, the Honorable Michael P. Jackson, 
the under secretary, the Honorable John Magaw, and the 
inspector general of the Department of Transportation, the 
Honorable Kenneth Mead. Let me recognize first Secretary 
Jackson. Oh, excuse me. I'm sorry.
    Senator Hutchison.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Mr. Chairman. I just want to 
say a couple of things. First, I have certainly been in close 
contact with you, Mr. Jackson, as we have tried to move this 
ball forward. I have also participated in several television 
appearances on the progress.
    I want to say, for the record, that a lot of so-called 
security experts out there are criticizing everything that is 
being done. Some have even gone so far as to say there's been 
no change since September 11 in aviation security. I think that 
is hogwash. I think anyone who has gone through an airport 
today must acknowledge that there's a difference.
    One of these so-called experts the other day was so 
negative, and the interviewer said, ``Well, what would you have 
us do?'' He said, ``Well, I think we need new and better 
technology.'' I came on later, and I said, ``Well, what are we 
supposed to do until we get the new technology? Are we supposed 
to do nothing?'' The answer is ``no''.
    We're trying to move forward at the quickest pace possible. 
With all of the problems we had passing the legislation, it is 
incumbent on us to work together to find out what it is that 
you need and don't have, if you are going to have trouble with 
deadlines, and the status of the new technology? The last thing 
I would condone is doing nothing until we get the new 
technology, which I know the Department of Transportation is 
very quickly trying to get.
    I am working very diligently to try to help you meet the 
deadlines that we have set. They've been tough. We've been 
tough. However, we need to be helpful in making sure that you 
have the ability to meet these deadlines.
    Second, I would like to say that we have focused on 
aviation, as we should have, because so many of the traveling 
public needed that confidence in order to come back to flying. 
But this new fledgling authority that we have, the 
Transportation Security Administration, is also going to have 
to take port security and highway and rail security under its 
wing. Particularly, Senator Breaux and I had a hearing in 
Houston over port security. Senator Breaux also held one in New 
Orleans and also Florida. Port security should definitely be on 
your radar screen. We have a lot of chemical complexes on our 
ports throughout the Gulf of Mexico, so I would just ask you, 
please, look at that.
    Finally, there are a couple of things that I think we need 
to ask you, as the head of the Transportation Security 
Administration, about the aviation field. One is the rule that 
we put in place--or maybe you put it in place--but it's the 
300-foot rule on parking. I hope that you will look at that 
before we make every rural airport start parking cars in 
pastures. Let's just assess it. I'm not saying change it, but 
I'm saying that is one rule that certainly needs to be looked 
at.
    Second, the issue of non-passengers going through security 
and be inside to meet loved ones or help carry bags or escort 
children. I know that we have discussed this, and it's 
something that you are not ready to address yet. But at the 
earliest time that we have settled in with our security 
measures, I hope that you will keep that in mind, as well, as 
long as there is a good security clearance and anyone going 
through has had the full technological capacity to be checked 
that we can provide.
    So those are the things. I appreciate very much, Mr. 
Jackson, coming to the DFW airport and walking through it with 
me and learning firsthand some of the issues. I look forward to 
working with you, Mr. Magaw, and you, Mr. Jackson, in the 
future, and Mr. Mead, always we enjoy hearing from you, as 
well. Thank you.
    The Chairman. Let me recognize the Subcommittee Chairman, 
Senator Rockefeller.

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. Thank you, Mr. Chairman. I also 
welcome all three of you--and I thought it was going to be all 
two of you, but I'm delighted to see you're here also, Mr. 
Jackson, since you were very helpful in this whole process.
    I want to say that what my colleague, Senator Hutchison 
said, is that we did do this bill, that it was thoroughly 
conferenced and worked through many times, and we were apart, 
then all of a sudden we're together, then all of a sudden we 
conferenced and it was done. We did it carefully, and we did it 
tightly, there are no questions. I suspect that that's making 
the job of Mr. Magaw a little bit more difficult. That was not 
our intention, to make it difficult or to make it un-difficult, 
but it simply was to get the job done as fast and well as we 
possible could.
    First, I need to really recognize what you have done, which 
is a great deal. And we on the Committee ought to be mindful of 
that and appreciative of that, because you've been under 
terrific pressure. You've got to go out and find more than 
50,000 people. And we were talking about 30,000. So, you've 
recalculated, and it's a lot. And that's a lot of pressure on 
you, and we do understand that, and you need to be commended 
for that.
    The points that I will bring up today are related to the 
baggage screening, including connecting flights, which I do 
want to talk about, and which we can have a good discussion on. 
We read language very carefully on the so-called one-year--the 
high school education matter. There is that little clause that 
does allow you to do, in fact, what you are doing, and I want 
to probe a little bit as to why you're doing that. Will we pay 
a cost for that, particularly when you take in mind what I 
believe is going to be the incredible amount of technology 
involved in this whole screening process in a very short order 
of time and from biometrics to all kinds of things.
    The pay and benefits for screeners is at your discretion, 
and I'm interested in how you feel thus far about that and what 
you plan to do about it, because I think that pay and benefits 
are, as much as salary, what people often--and particularly 
these days, people often need to look to. And, of course, 
there's a cost attached to that. So I'll be interested in that.
    The cargo part, I think you understand what I'll be asking 
you about that. And general aviation and air charters, I don't 
do a lot of that, but sometimes we've got to take a vote, like 
yesterday afternoon, you know, you've got to charter to get 
back for one judicial vote. So it's just a little annoying, 
even if you only come from West Virginia. That's close to Ohio, 
Senator.
    But in any event, it does constantly stun me that I can 
just walk in and out, as can they, those who fly, just walk in 
and out with absolutely nothing. And I am a more or less 
perfect person when I fly commercially or when I fly that way, 
that--well, we will see.
    But in any event, you've made a lot of progress. We have 
questions that we want to ask, because all of this stuff counts 
for real. It's the most vulnerable part of America, and I think 
will continue to be. Ports and authorities, I understand. Bombs 
in suitcases, I understand. But this is what we've passed, this 
is what we've asked, and this is an oversight hearing, which 
you understand.
    I thank you Mr. Chairman.
    [The prepared statement of Senator Rockefeller follows:]

 Prepared Statement of Hon. John D. Rockefeller IV, U.S. Senator from 
                             West Virginia

    Mr. Magaw and Mr. Mead, welcome. Two months ago, Mr. Magaw was 
before us for his nomination hearing. Mr. Mead has been here many 
times, and I appreciate his appearance again today.
    When Mr. Magaw was last here, we could not have been clearer about 
our expectations of him and the new Transportation Security 
Administration. We didn't ask for incremental, ``we'll try our best'' 
change. We asked for--and fought for--fundamental changes for airport 
security. Everyone who now boards a plane, be it in West Virginia or in 
Chicago, must know that everything possible is being done to make that 
flight secure. However difficult it may be, whatever it takes, it must 
be done. Today's hearing examines how we're doing--both what we have 
accomplished and what we will accomplish in the coming months.
    First, I must acknowledge the gains you have made. All of you at 
DOT have worked extraordinarily hard to meet the goals of the Security 
Act and its tight deadlines. And you have accomplished much: cockpits 
have been secured; millions of bags are being screened today that 
weren't a month ago; new training programs have been devised; hiring of 
Federal Security Managers has begun. For this, you should be commended.
    At the same time, a number of serious concerns remain. Barely a day 
goes by without a new article about gaps in the aviation security 
system. The eyes of the entire nation will be upon you as you address 
these gaps. So, today, we look for elaboration on your plans to address 
the following issues:
    <bullet> Baggage Screening--January 18 Deadline. The Security Act 
mandated that, by January 18, every bag must be screened. And it gave 
you a number of options for doing so. In meeting the deadline, I want 
to make sure that you use the most effective combination of 
technologies to screen bags and cargo going on board passenger 
aircraft--including connecting flights.
    <bullet> Baggage Screener Qualifications. The Act requires baggage 
screeners to have a high school diploma, except for those few who 
otherwise have sufficient relevant experience to demonstrate that they 
can do the job. Yet you interpreted that as meaning that baggage 
screeners with just one year of experience as a screener can keep their 
jobs, even without a high school diploma. This is certainly not what we 
meant by sufficient experience, and I'd like to examine your reasoning 
behind this policy.
    <bullet> Pay and Benefits for Screeners. The Act gives you the 
unique authority and flexibility to set pay and benefits, and we need 
to know how you're going to use it. If baggage screeners are treated, 
and paid, like second class citizens, they will do second class work.
    <bullet> Communication with airports and airlines. Both airports 
and airlines have expressed confusion about what security functions are 
being left to them. They need answers--and specifics--and I'd like to 
know what you're doing to alleviate this situation.
    <bullet> Cargo. The Act specifically requires mail and cargo loaded 
on passenger planes to be screened, but also requires you to address 
security on cargo aircraft (e.g., UPS and FedEx). This is a serious gap 
in aviation security.
    <bullet> General Aviation and Air Charters. The incident last month 
in Tampa (with the young student flying a Cesna into a bank building) 
should put us all on notice that general aviation and air charters also 
represent enormous gaps in aviation security. We asked you for an early 
plan on how to handle that, and we may need to pass some additional 
legislation on it, so I want to hear your best ideas in this area.
    With respect to all these issues, let me emphasize that it is not 
enough to simply implement the bare minimum of the Act's requirements. 
We expect you to use the maximum authority granted you by the Act to 
keep the skies secure. And we are prepared to support you, with 
resources and political muscle as you need it.
    Again, you have done much, and I commend you for it. But much work 
remains. Mr. Magaw, we have been told that you are the right person for 
the job. We have given you the tools and the money to get the job done. 
We expect nothing less, and I know we are all watching your work 
carefully.

    The Chairman. Thank you.
    Senator Burns.

                STATEMENT OF HON. CONRAD BURNS, 
                   U.S. SENATOR FROM MONTANA

    Senator Burns. I'd just ask permission to put my statement 
in the record, Mr. Chairman.
    The Chairman. So ordered.
    Senator Burns. I've got several questions here, and I guess 
I'm more concerned about the non-hub airports because we're at 
the end of the line on everything and some more questions.
    And so I thank the Chairman.
    [The prepared statement of Senator Burns follows:]
   Prepared Statement of Hon. Conrad Burns, U.S. Senator from Montana
    Thank you Mr. Chairman, this is a very important hearing for 
Montana's airports. Airports in rural states seem to have taken an 
unproportionate share of the burden as they try to comply with the 
national standards applied to the nation's airports.
    Most important, I want to express how important it is that Under 
Secretary Magaw include airport directors in the decision making 
process relating to security measures at the nation's airports. What 
works for Dulles International Airport may not work at Billings Logan 
International Airport.
    The national standard that was applied to all airports following 
the 9/11 attacks have created economic chaos with airports.
    We need more clarity re: the role that federal security officers 
will play at our airports and how this dovetails with the apparent 
ongoing role of local or airport law enforcement.
    We need to consider the massive number of Federal employees that 
need to be hired, trained and placed at America's airports. This needs 
to be done in a manner that will ensure the public that flying is a 
safe mode of transportation.
    We need to consider regional training sites in facilities that can 
handle the massive numbers of screeners to be trained.
    The most significant concern left over from the airport security 
mandate is the alteration or elimination of the very onerous 300-foot 
rule. This rule prohibits parking within 300 feet of an airport 
terminal unless very costly practices are enlisted.
    The expense and operational inconvenience is not justified at 
Montana's non-hub airports.
    Finally, we need to consider alternative methods to screen luggage. 
The Explosive Detection System, also known as the EDS, is compared in 
size to an SUV. The miles of conveyor system as well as the EDS 
machines required by the aviation security bill for the nation's 
airports would fill ten times the amount of space we currently have 
available for such security measures.
    Under Secretary Magaw is responsible to implement an enormous task. 
It is important we remain in contact and establish a record of these 
hearings as this implementation occurs.
    Thank you, Mr. Chairman.

    The Chairman. Thank you.
    Senator Smith.

                STATEMENT OF HON. GORDON SMITH, 
                    U.S. SENATOR FROM OREGON

    Senator Smith. Thank you, Mr. Chairman. I won't reiterate 
some of the questions already been asked by my colleagues that 
I intended to raise, but I have a particular concern about the 
rural-airport issue, the 300-feet setback, and some of the 
inability that these airports have had so far of complying with 
the law but not getting any relief from the standard if they 
can show other compliance otherwise. So I'm anxious to hear 
their comments on that.
    And, of course, the explosive detection systems, the 
machinery, how they're being paid for, what kind of 
infrastructure changes are being made, how they're dealing with 
it, how they're paying for it.
    So thank you, Mr. Chairman, I'll wait for the answers.
    The Chairman. Yeah, thank you.
    Senator Cleland.

                STATEMENT OF HON. MAX CLELAND, 
                   U.S. SENATOR FROM GEORGIA

    Senator Cleland. Thank you very much, Mr. Chairman. Thank 
you for holding the hearing in which we take a very public look 
at where the Department of Transportation and the new 
Transportation Security Administration are going in terms of 
implementing the aviation security law. I was proud to be a 
cosponsor of that legislation and proud that it passed the 
Senate one hundred to nothing.
    Mr. Magaw, you are indeed the captain at the helm of this 
new agency. And let me say I appreciate your taking on this 
formidable challenge. If it's any comfort, Dr. Martin Luther 
King used to say that, ``You can judge a man by the tasks he 
undertakes.'' He said, ``The ultimate measure of a man is not 
where he stands in moments of comfort and convenience, but 
where he stands at times of challenge and controversy.'' So 
welcome to the NFL. We're glad to see you.
    Last December, I chaired a commerce Committee field hearing 
in Atlanta on the new Aviation and Transportation Security law. 
We were fortunate then to have the deputy secretary as a 
witness. I'm looking forward again to hearing from Mr. Jackson. 
Thank you very much for coming. Mr. Mead, always nice to see 
you.
    These are formidable challenges that we face. They will 
require that the Transportation Security Administration 
incorporate the best thinking from key players in the aviation 
industry.
    I'm pleased to hear that DOT and the Transportation 
Security Administration recently had a conference call with 
several airport operators and representatives of the airport 
associations and that more calls are scheduled. Thank you very 
much. This is a good first step.
    And I just want to hear what else the TSA is doing to bring 
these individuals with firsthand knowledge of airport 
operations into the play. I also want to hear if the TSA is 
calling on the expertise of the current FAA security work 
force.
    In addition, I have deep concerns about the consequences of 
modifying the securities law requirement that screeners must 
have a high school diploma or GED. We want to get the smartest 
people possible. We don't want to dumb down the system. We saw 
what that does. We saw what that does in the form of what 
happened on September 11th. We want to smarten up the system, 
and I'll be looking forward to see how you plan to do that.
    I'd also like some feedback on legislation that I 
introduced following last November's shutdown at Hartsfield. I 
was on one of those aircraft, one of 60, marooned on the tarmac 
while some intruder ran amuck in Hartsfield, only to find that 
an intentional violation of airport security in this country is 
not a Federal criminal offense. It should be. I've introduced 
legislation along those lines. Certainly the recent incident at 
the San Francisco International Airport underscores, in red, 
the need for such a measure.
    So I'm looking forward to hearing from all of you who are 
here to address this all-important issue of aviation security 
when--we are in the wake of September 11th, we've learned in 
the most painful way possible that aviation security is 
equivalent to national security.
    Thank you very much.
    The Chairman. Thank you. Secretary Jackson, I understand 
that you have a statement for yourself and for Secretary Magaw. 
Secretary Jackson, I'd be glad to recognize you.

  STATEMENT OF HON. MICHAEL P. JACKSON, DEPUTY SECRETARY, AND 
    HON. JOHN MAGAW, UNDER SECRETARY OF TRANSPORTATION FOR 
             SECURITY, DEPARTMENT OF TRANSPORTATION

    Mr. Jackson. Mr. Chairman, thank you for having me here 
today. Thank you for your kind words about Secretary Mineta. He 
sends his greetings, as well.
    And I want to just reiterate, from my side of the table, 
how much we appreciate the bipartisan spirit of work that's 
brought to this topic. We committed to you early, and recommit 
today, that we welcome and will engage in a spirited and 
continuous basis with you to oversee this work that we're doing 
and to seek your counsel as we go forward.
    I'm pleased to be here with John Magaw, who does take on a 
tough job, and I thank the members of the Committee for 
expediting his appointment to this position. You don't know how 
much I personally appreciate having someone else with me here 
in this process.
    A large amount of activity is going on relative to this 
process, and I'd like to talk just about three channels of 
activity, in a broad way at the beginning, and then perhaps we 
could address some of the particular questions that have been 
raised by the members in their opening statements.
    First, just a little word about the process. How are we 
handling the job? How are we organized to do the job?
    Second, a word about how we stand on creating this new 
agency, standing up a brand new agency from scratch.
    And, third, how are we going to meet performance 
requirements? What are we going to measure ourselves against, 
what do we have to accomplish, and how are we going to know 
when we're successful in doing it?
    This is certainly laid out in the statute in a great deal 
of detail, but in this effort we are trying to meet a variety 
of goals, and I want to talk just a little bit about how we 
measure our performance there and what some of the key issues 
are that we're trying to grapple with.
    So let me just say an introductory word about each of these 
three topics. First, on the process, we briefed the President 
immediately following the bill on passage of the legislation on 
a method that we were going to use to manage the stand-up at 
the Department of Transportation. It involved creating a 
transitional set of teams to work on issues while we recruited 
an Under Secretary and began to staff up this office. And it 
called upon a variety of business tools and government tools 
that have been used for massive deployments by the government, 
but also for mergers and acquisitions, for new-business 
creation.
    We've gotten good counsel from outside the Federal 
Government--excellent cooperation from agencies as diverse as 
the Defense Department, the Justice Department, the Treasury--
and brought them into a series of teams managed out of a war 
room that is standing up this new agency.
    When we first started, we had about eight Go-Teams to 
manage particular problems with a very short timetable. For 
example, how are we going to meet the 30-day requirements of 
the legislation? Those eight have, by and large, done their 
jobs and gone, but there are now 40 of them cranking away at 
various different processes.
    We've brought in some folks from outside to advise us for 
four to 5 months on some of these issues, from some of the 
smartest folks in the private sector. It's a very small handful 
of folks, but they're layered in and working hand in hand with 
the government folks that we're hiring and that we have 
borrowed from around the government to do the task. So we've 
got about 40 different Go-Teams working on things.
    We're using a process that is going to map four key 
vulnerabil-
ities--passengers, cargo, the movement of people through 
airports, and physical assets at airports--airplanes, perimeter 
security, et cetera. So we're mapping how this process works 
from the time you make reservation until the time you drive 
away, and we're looking at each different part along the way 
assessing what type of tools, technology, people, and otherwise 
we can put against the vulnerabilities of each of these four 
layers of problems. So we're putting in place building blocks 
to do that.
    The second category of things that we'd be happy to talk 
about today here has to do with how we're standing up the new 
agency. And Under Secretary Magaw will talk about this in more 
detail in response to some of your questions, I'm sure. But 
we've got his crucial team beginning to come onboard and be in 
place and work at a series of these tasks. And we have laid out 
a structure at 429 airports which are going to receive the work 
that we have to do.
    They key these jobs is a new position, so-called Federal 
Security Director, which we will have in place, which will own 
all of the security issues at that airport for which we have 
responsibility. This is a person who has to know every aspect 
of the airport, has to work very closely with the airport 
director, the local police, the local officials, as well as 
other Federal agencies working at that airport. This is an 
individual who has to have great skills and able to command the 
forces at their disposal in that--in the organization.
    We've retained Korn-Ferry to help us search for the FSDs, 
the directors--at 81 largest airports. And we have a parallel 
process for the remaining airports in place.
    So with these key jobs, with key Departmental jobs, we are 
moving through a process to create the organization and stand 
it up. We have been moving people from FAA in increments to 
help manage the transitional process. And, as the statute 
contemplates, we'll be moving a significant number of FAA 
employees into the new organization as we move ahead in the 
weeks to come.
    Finally, I think there is a fair bit of discussion that we 
should have today in response to some of the opening statements 
about the two, sort of, channels of how we manage this job that 
have to do with the Federalization of the work force and 
particularly of the screening tools that we're using to get to 
the 1-year requirement for EDS--100-percent EDS.
    Our goals here, and how we will measure our success, is--
are complex but can be distilled to this: world-class security, 
world-class customer service. We know that our commitment is 
multimodal in nature. It's about ports. It's about airports. 
It's about all the modes of transportation that we have to deal 
with, but we have to balance world-class security first and 
customer service. And we think that we can do this in a 
coherent and intelligent way, meet our requirements, deliver on 
the EDS and other technology tools that we have to be deployed 
by the end of the year.
    So, Mr. Chairman, I would just simply outline the terrain 
for this conversation in that way and stop at this point and 
say that we'll be happy to dig into the particular questions 
that the Committee might have in this regard.
    [The prepared statement of Mr. Jackson and Mr. Magaw 
follows:]

 Prepared Statement of Hon. Michael P. Jackson, Deputy Secretary, and 
   Hon. John Magaw, Under Secretary of Transportation for Security, 
                      Department of Transportation

    Mr. Chairman and Members of the Committee:
    We are pleased to appear before you today and wish to thank the 
Committee for calling this hearing on a matter of critical importance 
to the Nation--ensuring the security of air travel across the United 
States and implementing the Aviation and Transportation Security Act.

                              INTRODUCTION

    On behalf of Secretary Mineta we want to assure Congress that the 
Department of Transportation is making and will continue to make every 
effort to fulfill each and every deadline contained in the statute 
enacted on November 19 last year. Your leadership in passing the 
Aviation and Transportation Security Act--creating the Transportation 
Security Administration--means that Americans will continue to exercise 
their right to travel free from the fear of terrorist violence.
    As you know the President has appointed John Magaw to take on the 
challenging task of establishing TSA and carrying out the mandates of 
the Act. We wish to thank the Senate for confirming his nomination last 
week.
    In just a few months TSA will have hired tens of thousands of new 
employees to screen passengers and baggage at 429 airports nationwide. 
We will have put in place additional employee background screening 
tools in the aviation industry. With our public and private sector 
partners we will strengthen every mode of transportation based upon 
comprehensive security assessments.
    As part of that effort Secretary Mineta announced recently that, 
beginning last month, TSA is working with the State of Maryland to use 
Baltimore-Washington International Airport as a site to study airport 
security operations, test TSA deployment techniques and technology, and 
begin to train senior managers for TSA.
    This testimony will address two topics: first, meeting the baggage-
screening and other deadlines established by the Act and second, 
developing TSA into a functioning agency as rapidly as possible.

      1. DEADLINES IN THE AVIATION AND TRANSPORTATION SECURITY ACT

    From the date of enactment the Secretary has focused our efforts 
intensively on complying with or exceeding the deadlines established in 
the new law. As Secretary Mineta has stated, we consider the law's 
tight deadlines as promises made to the American people, and we will do 
everything humanly possible to keep these promises. Secretary Mineta 
has given those of us in DOT a simple mandate with regard to these 
deadlines: let's figure out how to meet them because they are not 
negotiable. To date our efforts have been successful.
    As you know we met the ``30 day'' deadlines--action on Enhanced 
Class B airspace, qualifications for future screeners, a report on 
general aviation security, and claims procedures for reimbursement of 
direct security-related costs for airport operators and certain 
vendors.
    January 18 marked the ``60 day'' deadline for action. Among the 60-
day deadlines the requirement for 100 percent screening of checked 
baggage was the most important and the most challenging. While security 
considerations prevent us from discussing details of the comprehensive 
baggage-checking measures in a public forum, let me say that the 
approach contemplated in the Act--employing a combination of explosive 
detection equipment and alternative techniques as set forth in that 
provision by Congress--has been adopted.
    We are continuing to work with the airlines to take the necessary 
action to meet the bag-checking requirement, using the full menu of 
options provided for in the law. Passengers, airline staff, and current 
screeners have already experienced changes as a result. We will have 
overlapping, mutually reinforcing layers of security, some of which are 
visible, like screening stations, while others remain unseen, like 
intelligence, undercover work and state-of-the-art technology tools.
    Explosive detection equipment is a vital part of our baggage-
checking program. Every available explosive detection machine will be 
used to its maximum capacity. Where we do not yet have such equipment 
in place, we will use other options outlined in the law. On originating 
flights, checked baggage will be matched to passengers on board. 
Computers will screen passengers, and passengers will be screened for 
weapons--often multiple times. In addition more bags will also be 
subject to sniffing by trained dogs, to more comprehensive screening by 
both explosive-detection and explosive trace detection devices, to 
manual searches, or to a combination of those techniques.
    We will work to meet the requirement that each checked bag be 
screened by explosive detection equipment by the end of this year. 
Working with a team of consultants, we are looking at a wide variety of 
innovative approaches using technology, different ways to run the 
check-in process, and procurement strategies that can get us to that 
goal.
    September 11 taught us that our enemies are willing to die to 
attack us, and that means that we must successfully screen all baggage 
and cargo on a passenger flight, not just succeed at matching bags to 
passengers. Screening all baggage and cargo through detection 
technology is therefore among one of our highest priorities.
    In addition to the bag screening requirement, there are several 
other 60-day deadlines that we met:
    <bullet> FAA issued its guidelines for flight crews who face 
threats onboard an aircraft.
    <bullet> Air carriers began to electronically transmit foreign 
airline passenger manifests.
    <bullet> We released our screener training plan, which was written 
with input from leading government and private sector training experts.
    <bullet> We also issued the necessary guidance to implement the new 
September 11 $2.50 Passenger Security Fee on airline tickets sold on or 
after February 1 which will help finance TSA operations.
    Early on, Under Secretary Magaw and FAA Administrator Jane Garvey 
combined the efforts of TSA and FAA Civil Aviation Security staffs to 
implement our new program of initiatives to meet the 30- and 60-day 
deadlines. And as of yesterday the TSA officially assumed 
responsibility for the personnel and functions of the FAA's Office of 
Civil Aviation Security.
    The enormous contributions of our team of dedicated employees has 
been the most important factor in our success to date. We also 
appreciate the input of the Nation's airports, air carriers and 
aviation industry trade associations; their cooperation was an 
important factor in our efforts to successfully meet these deadlines.
    In concluding this portion of the testimony, we would like to 
mention the other future deadlines on which the TSA and the Department 
are most focused. On February 17 just a few days from today, TSA will 
take over the aviation screening responsibility that has been the 
airlines' up until now by assuming the airline screening contracts and 
equipment that provide passenger screening at the Nation's airports. We 
will implement the charter air carrier security program mandated by 
Congress. Most significantly we will also begin to staff TSA with 
sufficient Federal screeners and other personnel to be able to certify 
to Congress on November 19 of this year that we have complied with 
section 110(c) of the Act to carry out all passenger screening with 
Federal personnel.
    This brings us to the second topic bringing TSA on line.

  2. MAKING THE TRANSPORTATION SECURITY ADMINISTRATION A FUNCTIONING 
                                 AGENCY

    The new TSA is foremost a security agency. We will use all the 
tools at our disposal--intelligence, regulation, enforcement, 
inspection, screening and education of carriers, passengers and 
shippers. Under Secretary Magaw is assembling a seasoned group of 
managers to assist him in creating the headquarters and field 
organization and fully staffing it within 10 months. The process itself 
entails consultation and participation by many outside groups--
airlines, airport executives, labor unions, screening companies, 
airport vendors, airplane and security equipment manufacturers, trade 
associations and experts of many sorts.
    To jumpstart work on critical tasks, we created ``Go-Teams'' to 
work intensively on specific tasks, present decision options, and then 
disband. Some of these have successfully completed their tasks and 
moved on. At present, we have some 36 Go-Teams launched and operating. 
They cover a thousand details small and large--from what uniforms the 
TSA security force will wear, to the procurement, installation, and 
maintenance of explosive detection equipment for 429 airports. In 
addition, we have teams developing detailed strategies to protect not 
only passengers, cargo, and people working in and moving through 
airports, but also physical assets such as aircraft and terminal 
facilities.
    Funding and staffing up this enterprise are enormous challenges. We 
are relying on the FAA Civil Aviation Security organization, which is 
now incorporated into TSA, the Secretary's Office of Intelligence and 
Security and detailees from throughout the Department to undertake the 
many procurement, personnel, and provisioning challenges we face. The 
Secretary has formed a DOT Management Committee that makes assignments, 
tracks progress, and reports to him on the accomplishment of discrete 
projects. This process has accounted for our ability to meet the Act's 
deadlines and to produce the highest quality results.
    A great deal of coordination within the Executive Branch is 
necessary to bring staff and resources online in an expedited manner, 
and we plan to place heavy reliance on the new Transportation Security 
Oversight Board composed of cabinet Secretaries and representatives of 
intelligence and national security groups, in particular the Office of 
Homeland Security. Unprecedented cooperation by these entities and the 
Office of Management and Budget on funding issues has already assisted 
us greatly.
    The President's 2003 budget for TSA requests $4.8 billion, an 
increase of $3.6 billion above the level of funds provided directly to 
TSA in fiscal year 2002 and $2.5 billion above the amounts appropriated 
to both TSA and the Federal Aviation Administration. The $4.8 billion 
would be funded through a combination of direct appropriations, 
offsetting collections in the form of the passenger security fee of 
$2.50 and an airline charge. The total for the offsetting collections 
is estimated to be $2.2 billion. Resource information for the Federal 
Air Marshal program can be provided in a classified document or 
briefing.
    TSA's budget has been presented to Congress in a service-oriented 
manner, rather than by expense type (i.e. operating expense, capital 
costs, and research). These broad service areas are security 
operations, law enforcement, intelligence, and security regulation and 
enforcement, and include headquarters and field resources with 
administrative, support and management personnel.
    We are creating a flat organizational structure at TSA that 
emphasizes front-line service delivery with well-trained managers and 
is supported with an array of services deployed from Washington.
    One key to our success at airports nationwide will be a core of 
senior managers, the Federal Security Directors. These FSDs are the 
strong front-line managers who will bring federal authority directly to 
the point of service, the airport. Under Secretary Magaw will select 
the first FSDs shortly.
    Another key to the success of our efforts will be baggage 
screeners. The Under Secretary is designing a compensation and benefit 
structure that will help attract the highest quality employees while 
also developing a fair process that allows us to quickly remove those 
who neglect their work. Screeners will receive compensation that is 
substantially higher than what screeners generally now receive and also 
full Federal benefits, including health insurance and leave and 
retirement programs. We believe that this compensation and benefit 
package will have a positive effect on screener retention rates and 
effectiveness. In addition, we will create a career path and provide 
other job enhancements for the screener workforce. In December of last 
year, we announced the qualifications for the new screeners. As 
required by the Act, these new screeners must meet strict requirements 
before they are hired and must successfully complete a rigorous 
training program and pass an exam before they can be deployed.
    The TSA is charged with security for all modes of transportation, 
and a focus on aviation must not slow the TSA's pace in addressing the 
security needs of other transportation modes. Across every mode, we 
must continue to develop measures to increase the protection of 
critical transportation assets, addressing freight as well as passenger 
transportation. We will maintain a commitment to measure performance 
relentlessly, building a security organization that provides world-
class security and world-class customer service to those who travel.
    The new security system will be robust and redundant, and we will 
be relentless in our search for improvements. It is better today than 
yesterday; and it will be better still tomorrow.

    The Chairman. Very good.
    Mr. Mead.

     STATEMENT OF HON. KENNETH M. MEAD, INSPECTOR GENERAL, 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Mead. Thank you, Mr. Chairman and members of the 
Committee.
    The focus of our testimony today is on aviation security, 
but as some of the members of the panel and Deputy Secretary 
Jackson pointed out, in the months ahead we're also going to 
have to focus resources on things like ports, transit systems, 
and containers that go on trucks, trains, and ships.
    Mr. Chairman, I reported to the House 2 weeks ago, and I 
want to reiterate today, that in the job of inspector general 
you report on weak underbellies on things, and you also report 
on strengths. And I want to tell you, I've been impressed with 
the diligence and aggressiveness with which the secretary, his 
team, and the under secretary have pursued implementation of 
this act. And there are some, as you know, formidable 
milestones in it, but we've been watching this firsthand, and 
they deserve a hats-off for putting in a 24-7 effort on this.
    Since November, Mr. Chairman, we've been conducting 
undercover audits at airports around the country at the request 
of the President and the direction of the Secretary. We've been 
feeding back the results we've been finding. And I think it's 
accurate to say that since September, and since mid-November 
particularly, we've seen security at all categories of airports 
progressively getting tighter. There are still, though, 
alarming lapses of security. Perhaps they're more visible 
today, but we're still finding them. Ensuring that those lapses 
don't recur is just one of the challenges we face in the months 
ahead.
    I'd like to say a word about screening checked bags, hiring 
and training the TSA work forces, and money to do all this.
    First, screening checked baggage. There's a requirement in 
the law now that 100 percent of checked baggage gets screened. 
But because there's a shortage right now of those explosives 
detection machines, the law says you can use alternative 
methods. The predominant method that the airlines are using is 
called ``positive passenger bag match.'' Based on our audit 
observations on the day this first was implemented, and 
subsequently across the country, we found high levels of 
compliance--very high levels of compliance. And I think that's 
a real significant achievement. But it's important to recognize 
that positive bag match is done at the point of origin, so that 
if there's a connecting flight, that's not really covered. I 
think there's a gap there, and we ought to seek ways to close 
it.
    The concern really is not with the passenger that gets on 
the connecting flight, because he is on the flight with his 
baggage; the concern is with the passenger who gets off at the 
connecting airport and his bag stays on the plane. I know the 
airlines say they can't do positive bag match for connecting 
flights, that it's a logistical nightmare. But, you know, they 
said the same thing, and have been saying the same thing for 
years, about doing any positive bag match at the orginating 
point.
    So we're suggesting that the department consider a pilot 
program at selected airports to see whether it's doable and 
what the limitations are. And as I understand from Deputy 
Secretary Jackson and Undersecretary Magaw, they're considering 
whether some approach here would be feasible.
    I also want to point out that there's a gap between the 
number of machines that were forecasted to be needed and the 
numbers that can be produced between now and December 31st. The 
TSA is preparing contracts--I don't think they've been 
announced yet, but they're about to be announced--for a couple 
of hundred of these machines. And I think that's an important 
step, because we're going to see whether these vendors can 
really produce as quickly as we and they think they can.
    Another important question on these explosives detection 
machines is where to put them. We have been putting them in 
airport lobbies, but with the number of machines that you're 
going to need to do nearly one billion bags a year, you won't 
be able to put all these machines in the lobbies. And it's 
unlikely during the remainder of this year that you can do all 
the construction that's necessary at all the airports across 
the country to get these machines permanently integrated in the 
baggage systems. So there are probably going to be some interim 
solutions that the Transportation Security Administration will 
employ in order to meet the December 31 deadline.
    I think it's obvious that, with the 400-odd airports we're 
speaking of, what has to be done will vary by airport. That's 
why it's important to include the airports in this process. TSA 
knows this, and I think that it might be a good idea over the 
next 90 days to get a plan on what we're going to do at these 
400-odd airports so that TSA is able to report back to you--in 
the accordance with the statutory reporting date of mid-May--on 
what's going to be done to deploy the EDS technology.
    One final note on these machines. It's important that they 
be used to the maximum extent possible. We've found very mixed 
results around the country. At one airport we find they're 
being used extensively. We go to another airport, and we find 
they're not being used extensively. I hope, in the middle of 
this month, when TSA takes over the contracts, that that'll 
change, and change quickly.
    On the work force, I know there were some early estimates 
that 30,000 people would be needed, but I think you're looking 
at at least 40,000 people. And the key driver is going to be, 
how many screeners you need to run the explosive detection 
machines, and that's a wild card that I don't think has been 
settled yet.
    Another driver is how many people in the existing work 
force will be able to go over to the new work force. And that 
will be determined in the months ahead. As you know, at Dulles 
International Airport, nearly 80 percent of the screeners 
weren't U.S. citizens. So at Dulles, it may be that you are 
going to have to work a bit harder to get a qualified work 
force.
    And, finally, I'd like to close on financing. It's going to 
cost substantially more than we thought it would, and the fee 
that was provided for in the legislation will not be enough, 
nor will the amount the airlines are planning to contribute. So 
we're going to be looking at direct appropriations, and I think 
the Committee ought to be prepared for a supplemental request 
to cover items that are for 2002 even.
    And, finally, the vendors are lining up, Mr. Chairman. They 
all have the answer to your security needs. And I think that, 
at a time like this, it's going to be very important for the 
Transportation Security Administration to have good controls in 
place so we don't see fraud, waste, and abuse.
    Thank you.
    [The prepared statement of Mr. Mead follows:]

    Prepared Statement of Hon. Kenneth M. Mead, Inspector General, 
                      Department of Transportation

    Chairman Hollings, Ranking Member McCain, and Members of the 
Committee:
    I appreciate the opportunity to speak today on key issues 
concerning the implementation of the Aviation and Transportation 
Security Act (Act). The focus of our testimony today will be on 
aviation security. However, it is important to note that the 
Transportation Security Administration (TSA) is responsible for all 
aspects of transportation security, not just aviation security. 
Currently, all modes of transportation (transit, rail, motor carriers, 
coast guard, etc.) are performing risk assessments. In the months 
ahead, TSA will have to focus resources on addressing security across 
all modes of transportation.
    The mission of creating a new Federal agency charged with ensuring 
security across all modes of the U.S. transportation system is a 
tremendously formidable task. Since passage of the Act, there has been 
a sea change set in motion--all with very short timeframes. As we 
reported to the House 2 weeks ago and reiterate today, thus far we have 
been impressed with the diligence and aggressiveness with which the 
Department and the new TSA have moved forward to meet the early 
deadlines established by the Act. Foremost accomplishments include:
    <bullet> issuing screener qualifications and developing a training 
plan for aviation security screeners;
    <bullet> issuing proposed procedures for airport and parking lot 
operators, and direct vendors to seek part of the $1.5 billion 
authorized to cover security costs;
    <bullet> identifying and reporting to Congress on airspace security 
measures to improve general aviation security;
    <bullet> issuing guidance for training programs to prepare crew 
members for potential threat conditions on passenger aircraft;
    <bullet> issuing the final rule beginning the collection of the 
security fee effective February 1st; and
    <bullet> requiring air carriers to screen 100 percent of checked 
baggage using explosives detection equipment or alternative means, 
including positive passenger bag match.
    Before the Act was passed, the Federal Aviation Administration 
(FAA) was working with the industry to reinforce all cockpit doors and 
to strengthen the Federal Air Marshal program. Since November we have 
been conducting ``undercover audits'' of security performance at 
airports nationwide, as requested by the President. We are briefing 
DOT, TSA and FAA officials on our results as we perform our work at 
airports across the country. We have seen that security has 
progressively improved and is clearly tighter today than before 
September 11th. There are still alarming lapses of security, and the 
process of ensuring that these lapses do not recur is just one 
challenge that lies ahead.
    Mr. Chairman, the next major milestone for TSA is less than 2 weeks 
away, when the agency will assume control of all screener contracts. 
However, the two most critical deadlines still lie ahead. The first is 
November 19th, when TSA must ensure that there are enough Federal 
screeners, Federal law enforcement officers, and Federal security 
managers in place to conduct the screening of passengers and property 
at all commercial airports. The second is December 31st, when TSA must 
have a sufficient number of explosives detection systems in place to 
screen all checked bags.
    Today, I would like to discuss three areas concerning aviation 
security: screening checked baggage, hiring and training the TSA 
workforce, and financing requirements of the Act.\1\
---------------------------------------------------------------------------
    \1\ Though not the subject of our testimony today, we recently 
completed a cargo security audit and shared our results with the 
Department. We can share our results with members of Congress in an 
open or closed session, as appropriate.
---------------------------------------------------------------------------
    Screening Checked Baggage. Air carriers are now required to screen 
100 percent of checked baggage using either an FAA-certified explosives 
detection system (EDS) or an alternative method. Because there are 
limited EDS units currently available, carriers are relying primarily 
on positive passenger bag match. Based on our observations on January 
18th and 21st at airports nationwide, we found high levels of 
compliance and minimal disruption of air carrier operations. Positive 
passenger bag match at the point of origin represents a significant 
achievement, especially in light of the concerns air carriers have 
expressed over the years that it would be either difficult to do or 
impractical.
    However, positive passenger bag match has limitations, and the gap 
in the process for passengers with connecting flights needs to be 
closed. Positive passenger bag match currently applies only at the 
point of origin. It does not apply to passengers' connecting flights. 
The concern is not with the passengers who get on the connecting 
flight, but rather the much smaller percentage of connecting passengers 
who do not get on their connecting flight but their checked baggage 
does. We understand the Department is considering ways to address this 
gap in positive passenger bag match procedures.
    The airlines have expressed concerns that positive bag matching on 
connecting flights would create a logistical nightmare and could cause 
serious disruption at their hub airports. We have not seen evidence to 
support their concern that positive passenger bag match cannot be done, 
albeit there may be some circumstances where it is not practical to do. 
In our opinion, it could be advantageous to TSA, the industry, and the 
traveling public to initiate a pilot program of limited scope, perhaps 
2 to 4 weeks at selected locations, to identify logistical issues and 
determine whether positive bag match on connecting flights is 
operationally feasible and under what circumstances.
    Regardless, it is important to remember that positive passenger bag 
match will not prevent a suicidal terrorist from blowing up an aircraft 
by putting a bomb in his or her baggage, and it is not a permanent 
substitution for 100 percent EDS screening. This is why Congress has 
required, and the Department is aggressively moving out to ensure, that 
all checked baggage is screened through an explosives detection system 
by December 31, 2002.
    TSA faces significant challenges in meeting this requirement. 
Currently, there is a gap between the number of certified EDS needed 
and what manufacturers can produce. Since October 1st, FAA has ordered 
22 EDS machines, and so far 10 of those have been delivered, leaving a 
balance of 12 outstanding. These machines were ordered under existing 
contracts. Under a new solicitation in fiscal year (FY) 2002 that has 
not yet been awarded, TSA is preparing letter contracts for a total of 
200 additional EDS machines. This is an important step. It will provide 
an opportunity for the manufacturers to ramp-up production and 
demonstrate their capability to meet the production requirements.
    An equally important question is whether the number of EDS machines 
required to screen 100 percent of checked baggage can be installed in 
airport lobbies, and at the same time keep the aviation system running 
with a reasonable degree of efficiency. Given the rate that checked 
bags pass through an EDS machine, the number of alarms experienced by 
current technology, and the amount of bags checked during peak times at 
our large airports, all EDS machines cannot be installed in airport 
lobbies. Rather, TSA will almost certainly need to employ a variety of 
deployment strategies. Among the strategies being considered to meet 
the December 31st deadline are the integration of EDS machines into the 
baggage system, and, as an interim solution, use of a combination of 
explosives trace detection and EDS machines installed in the lobby.
    The task of installing EDS machines will vary by each airport's 
physical plant and operations. This is why it is imperative that 
airport operators be key players in this process. TSA is aware of this 
and on February 1, 2002, TSA announced it will study security 
procedures and processes at 15 selected U.S. airports over the next 6 
weeks. This step is of enormous importance because it begins the 
process of understanding how to reconfigure the lobbies and baggage 
systems at more than 400 U.S. airports so that 100 percent of the 
checked baggage will be screened effectively and efficiently by the end 
of the year.
    Clearly, there are significant challenges associated with meeting 
the December 31st deadline. With all that needs to be done, we 
recommend TSA consider developing a plan in the next 60 days for at 
least the top 81 airports (Category X and I), detailing what equipment 
they will need, where the equipment will be installed, a timeline for 
accomplishing the installation, how passengers will be processed 
through the system, and potential effects on air carrier operation. In 
our opinion, this would be a logical step that builds on TSA's February 
1st announcement and will help TSA in meeting the May 18th deadline for 
a report to Congress on a plan for deploying EDS at all airports.
    As TSA installs EDS machines, it must ensure that the machines are 
continuously used to the maximum extent possible. Although we have seen 
a steady increase in utilization since November, the definition of 
``continuous use'' is ambiguous and has led to wide-ranging 
interpretations resulting in many currently installed machines still 
being underutilized. These machines are capable of screening at least a 
125 bags per hour in an operational environment. In that FAA estimates 
that 1 billion bags are checked each year, TSA must ensure maximize use 
of these valuable and expensive assets. Fully utilizing the installed 
machines will also assist TSA in determining how many machines are 
needed to screen 100 percent of checked baggage.
    Hiring and Training the Workforce. Another major challenge facing 
TSA is the hiring and training of a qualified workforce. Recent 
estimates indicate that TSA will need to hire at least 40,000 
employees, including over 30,000 screeners, an executive team, law 
enforcement officers, Federal air marshals, and support personnel. TSA 
and FAA have expanded the Federal Air Marshal program for both domestic 
and international flights. Law enforcement personnel from several 
Federal agencies, including the OIG, have been selected and trained to 
augment the Federal Air Marshal program until TSA can recruit and train 
the necessary personnel. TSA has also hired an executive recruiting 
firm to assist it in hiring the initial 81 Federal Security Directors. 
These individuals will play a key role in hiring and training the 
screeners and law enforcement officers for their particular airports.
    It is important to recognize that screeners do more than just 
screen passengers and their carry-on bags at screening checkpoints and 
boarding gates--they also screen checked bags. More screeners are 
needed to operate EDS machines in airport lobbies than to operate EDS 
machines integrated into the baggage system. Use of a combination of 
EDS and trace explosives detection devices to screen checked baggage 
will also require more screeners. Therefore, key to the number of 
screeners required is how many and what kinds of equipment are to be 
deployed at each airport.
    Since airport screeners must now be U.S citizens, and able to speak 
and write English, a significant number of the current screening 
workforce may not qualify for screening positions with TSA. For 
example, at Dulles International Airport, it is estimated that up to 80 
percent of the current screeners will not qualify for employment with 
TSA. There are no exact data on how many screeners in the current 
workforce will qualify for positions with TSA. However, this will have 
a significant impact on how quickly TSA can hire and train the needed 
screeners, and how quickly the agency can assume screening at airports.
    Financing Requirements of the Act. There are also tremendous 
budgetary challenges facing TSA for this year and next, and it is 
increasingly clear that the cost of good security will be substantially 
greater than most had anticipated. The cost implications are both in 
terms of capital costs for equipment and operating costs for personnel. 
Key drivers are the sheer number of Federal screeners, Federal law 
enforcement officers, Federal security managers, and Federal air 
marshals that will be needed, as well as the pace and type of EDS 
installation.
    Total capital costs for the EDS equipment could range between $1.9 
billion and $2.5 billion. This does not include the cost to integrate 
EDS equipment at airports, which could exceed $2.3 billion. In addition 
we have seen estimates for FY 2002 operating costs ranging from $1.6 
billion to $1.8 billion based on hiring, training, and deploying a 
Federal workforce of over 40,000 employees by the November 19th 
deadline. In contrast, TSA has a projected revenue for FY 2002 of 
between $2.0 billion and $2.4 billion. Clearly, a supplemental 
appropriation will be needed.
    For FY 2003, operating costs for TSA's workforce could range 
between $2.7 billion and $3.3 billion, as the agency experiences its 
first full year of salary costs. However, revenue from the security fee 
and air carrier contribution will not be sufficient for FY 2003. The 
security fee is estimated to generate only about $1.7 billion in FY 
2003 and the Department estimates that assessments from the carriers 
will only bring in around $700 million.
    Given the pace of events since September 11th, it is understandable 
why there would be such substantial fluidity in the budget numbers. 
Now, an immediate task for TSA is to move out with dispatch in order to 
bring as much clarity as possible to its budgetary requirements for 
this year and next.
    Credible budgetary requirements will help Congress and the 
Administration resolve the questions of who will pay for what and in 
what amount. Much confusion exists in these areas because there are 
many funding sources--some of which are appropriated and some of which 
are not. These include revenue from fees, direct appropriations, and 
airline contributions, as well as changes to how airports can use grant 
money and passenger facility charges.
    Given the large budgetary requirements, it is important that TSA 
have good cost controls. Vendors are very aware of the immense amount 
of equipment that will need to be purchased. As TSA begins reviewing 
its capital needs, vendors are lining up with a vast amount and array 
of equipment, and TSA must sort through the claims and counter claims 
of vendors who believe their technology is the best for meeting the 
established deadlines. Given the large budgetary implications, it is 
imperative that TSA ensure that its acquisition process is free from 
fraud, waste, and abuse.

                      I. SCREENING CHECKED BAGGAGE

    Effective January 18, 2002, air carriers with scheduled and public 
charter service are required to screen all checked baggage at airports 
throughout the United States. An FAA-certified explosives detection 
system is the preferred method of screening, but between now and 
December 31st, air carriers have several options for screening checked 
baggage as an alternative to EDS machines. The options for non-
selectees include:
    <bullet> using non-certified advanced-technology equipment 
purchased by the FAA (there are currently 21 such machines in use at 9 
airports by 8 air carriers);
    <bullet> using explosives trace detection equipment assessed to be 
effective by FAA;
    <bullet> physically searching bags;
    <bullet> searching checked baggage using FAA-certified canine 
teams; or
    <bullet> using a positive passenger bag match program, with a 
verifiable tracking system, that demonstrates that a passenger's 
checked baggage is not transported without the passenger.

Positive Passenger Bag Match Increases Security, and Air Carriers' 
        Implementation Is a Significant Achievement, But Gaps in Bag 
        Matching at Connecting Airports Need to Be Closed
    Recent OIG observations found positive passenger bag matching is 
the primary method air carriers are using to screen checked baggage 
until sufficient explosives detection equipment is available. 
Currently, there are only 166 operational EDS machines at 52 U.S. 
airports. In order to gauge how air carriers are meeting the new 
requirement, we observed 147 flights at 14 airports involving 22 
different air carriers on January 18th and 21st. During our 
observations, we determined if all passengers were on the aircraft with 
their checked baggage, or waited at a baggage carousel to determine if 
any checked baggage arrived at the airport without a passenger.
    We found high levels of compliance with minimal disruption of air 
carrier operations during our observations. The air carriers we 
observed predominantly used positive passenger bag match as the option 
to screen their passengers' checked baggage, with some checked bags 
also being screened using one of the other options (i.e., EDS, physical 
search, canine, etc.). While we found some exceptions on January 18th, 
we think the air carriers did a good job given this was the first day 
the requirement was in effect. We only recorded five noticeable delays 
on January 18th, meaning on the first day, 94 percent of the flights we 
observed were not delayed. We did not observe any noticeable delays on 
the January 21st.
    It is important to note that the air carriers' positive passenger 
bag match programs do not ``screen'' checked baggage. Instead, positive 
passenger bag match ensures that the passenger who checked a bag or 
bags actually is on the flight with the baggage when the aircraft 
departs. If the passenger fails to board the aircraft, the air carrier 
must not load that passenger's checked baggage, or if already loaded, 
the baggage must be located and removed from the aircraft.
    There are limitations to the effectiveness of the positive 
passenger bag match program, and one gap in the program needs to be 
closed. Positive passenger bag match currently applies only at the 
point of origin. It does not apply to passengers' connecting flights. 
In other words, if a traveler from Washington to Los Angeles has to 
transfer at Chicago, the bag match is only applied to the passenger for 
the Washington-Chicago segment. It is not applied to the passenger for 
the Chicago-Los Angeles segment. This gap needs to be closed, because 
by definition if the passenger is not on the same aircraft as his or 
her checked baggage then it is not a positive passenger bag match. We 
understand the Department is considering ways to address this gap.
    The Bureau of Transportation Statistics (BTS) estimates that 
approximately 27 percent of all passengers are connecting passengers, 
based on a Passenger Origination-Destination Survey in 2000. The issue 
is with the small minority of passengers at connecting airports that 
never get on the connecting flight, but their baggage does. We do not 
know exactly how many passengers do not make their connections while 
their baggage remains on the flight. However, we do know that for some 
hub airports the majority of passengers on a flight are connecting 
passengers. For example, SalomonSmithBarney estimates, based on data 
for the year ended second quarter 2000, that nearly 68 percent of the 
passengers of a major air carrier at one hub were connecting 
passengers. These connecting passengers would not have their checked 
baggage subject to positive passenger bag match when departing the hub 
airport. This creates a higher risk for flights departing hub airports, 
which are the largest airports in the country.
    We all agree that positive passenger bag match will not stop the 
terrorist willing to commit suicide, but it does represent a clear and 
significant improvement in checked baggage security over what was 
conducted before September 11th. However, it could be advantageous to 
both TSA, the industry, and the traveling public to initiate a pilot 
program of limited scope, perhaps 2 to 4 weeks at selected locations, 
to identify logistical issues and determine whether positive bag match 
on all connecting flights is operationally feasible.
    Regardless of this outcome, it is also important to remember that 
positive passenger bag match will not prevent a suicidal terrorist from 
blowing up an aircraft by putting a bomb in his or her baggage, and 
that it is not a permanent substitution for 100 percent EDS screening. 
This is why Congress has required, and the Department is aggressively 
moving out to ensure, that all checked baggage is screened through an 
explosives detection system by December 31, 2002.

EDS Screening of All Checked Bags by December 31st Will Be Challenging
    TSA faces significant challenges in meeting the requirement to 
screen 100 percent of checked baggage using explosives detection 
systems by the end of 2002. Production capability estimates have 
increased since December from 587 EDS machines to 2,260 EDS machines, 
but this still leaves a gap of about 700 machines. Both manufacturers 
need time to ramp-up their production, and delays in ordering could 
increase the gap between production capacity and the number of machines 
needed. Under a new solicitation in FY 2002 that has not yet been 
awarded, TSA is preparing letter contracts for a total of 200 
additional EDS machines. This is an important step because this 
commitment by the Department will provide an opportunity for the 
manufacturers to ramp-up production and demonstrate their capability to 
meet the production requirements.
    TSA must also get air carriers and airport operators involved in 
determining the installation plan for their airports--what type of 
equipment is needed, when it is needed, and where it will be installed. 
There is a fundamental concern with whether it is feasible to put the 
majority of EDS machines in airport lobbies. TSA is aware of this and 
recently initiated a study of security procedures and processes.
    Producing the Equipment. Currently, there is a gap between the 
number of certified EDS machines needed and what manufacturers can 
produce. However, the size of the gap changes based on various 
scenarios.
    FAA estimates that airline passengers check between 900 million and 
1 billion bags each year. As of January 29th, only 182 FAA-certified 
explosives detection systems were installed at 54 airports. Of these 
systems, 166 were operational at 52 airports. Deployment of these 
systems began in 1997, and DOT has spent more than $300 million on this 
effort, including the costs of installing systems. To meet the 100 
percent screening requirement, FAA\2\ estimates over 2,000 additional 
EDS machines will need to be installed in over 400 airports nationwide 
over the next year.
---------------------------------------------------------------------------
    \2\ FAA continues to work with TSA in meeting the requirements of 
the Act, until February 17th, when TSA takes over responsibility for 
all aviation security functions.
---------------------------------------------------------------------------
    Currently there are only two vendors that make FAA-certified 
explosives detection systems, L-3 Communications and InVision 
Technologies. (A third vendor, PerkinElmer, has a machine that is 
pending FAA certification.) We have seen substantial swings in the 
estimated production capabilities of these two manufacturers. During 
our visits in December, they showed production plans for a combined 
capacity of only 587 machines by December 2002, leaving a gap of 1,400 
machines. The Department hired a consulting firm to review how TSA 
could meet the 100 percent baggage screening requirement by December 
2002. The consultant recently estimated that manufacturers could 
produce as many as 2,260 CTX 5500 or equivalent EDS units by year end, 
but estimated that 2,990 machines were required to meet the 100 percent 
screening, leaving a shortage of about 700 EDS machines.
    The consultant recommends using a combination of EDS and explosives 
trace detection units to screen checked baggage to meet the December 
deadline. Using this method, the consultant determined that 
approximately 1,800 EDS would be required. Under this scenario, the 
consultant concluded that manufacturers could produce sufficient 
numbers of EDS and trace explosives detection units, with no shortage. 
The consultant looked at multiple implementation schemes, including 
integrating the equipment into the check-in process, integrating 
equipment into the baggage system, and screening bags in remote 
locations such as parking lots.
    At the Department's request, both InVision and L-3 Communications 
are working now to determine their ability to support even higher 
production rates. Their calendar year 2002 production rates are, 
however, dependent upon receiving orders. But both vendors need time to 
ramp-up their production. Since October 1st, FAA has ordered 22 EDS 
machines, and so far 10 of those have been delivered, leaving a balance 
of 12 yet to be delivered. These machines were ordered under existing 
contracts. Under a new solicitation in FY 2002 that has not yet been 
awarded, TSA is preparing letter contracts for a total of 200 
additional EDS machines, but these 200 machines do not represent the 
maximum number to be procured under this solicitation. This is an 
important step because this commitment by the Department will provide 
an opportunity for the manufacturers to ramp-up production and 
demonstrate their capability to meet the production requirements.
    The Department and TSA are continuing to work to identify ways to 
fill the gap between EDS units required and production capabilities. 
The EDS equipment we have today is certified because it has gone 
through a rigorous testing process to ensure its ability to detect 
explosives. Manufacturers of non-certified bulk explosives detection 
equipment might be able to fill the gap, but it should be recognized 
that this equipment is not certified for a reason: in some cases it 
cannot detect all of the threat explosives types. If non-certified 
equipment is used to fill the gap, it will eventually have to be 
replaced, probably at considerable additional costs and sooner rather 
than later, by more capable, certified equipment.
    Installing the Equipment. Purchasing the equipment, especially EDS, 
is only half the battle. The equipment must also be installed, and this 
can take months to accomplish. Installing EDS machines in airport 
lobbies usually takes less time than integrating them into the baggage 
system, but requires more machines and more screeners.
    EDS machines are big and heavy, requiring moderate to extensive 
reengineering, including floor strengthening. At many of our busiest 
airports, i.e. San Francisco and Dulles, check-in areas are long and 
narrow with very little room between the lobby entrances and the ticket 
counters. As TSA begins using these machines continuously or using 
trace units to screen checked baggage, additional lines will form in 
the airport terminal.
    Currently, numbers as to how much equipment will be needed, where 
it will be installed, and how long it will take to put them in place, 
are all estimates. We have the largest aviation system in the world, 
and screening 100 percent of the checked baggage (approximately 1 
billion bags a year) will be a real challenge. The question that must 
be answered is can this equipment be installed in airport lobbies, as 
opposed to integrating the EDS into the baggage system, and at the same 
time keep the aviation system running with a reasonable degree of 
efficiency.
    Several airports around the world have explosives detection systems 
integrated into the baggage system, so that all baggage is screened. 
However, no country is screening 100 percent of checked baggage, at an 
airport the size of our large hub airports, with explosives detection 
systems in the terminal lobby. At Dulles, preliminary designs show that 
if you place all the EDS required to screen the checked baggage in the 
main terminal area, there is very little room left for passenger 
queing. In addition, since it has never been done, no one knows for 
sure if TSA and air carriers could move passengers through the check-in 
and screening process without significant adverse effects on air 
carrier operations.
    Given the rate that checked bags pass through an EDS machine, the 
number of alarms experienced by current technology, and the amount of 
bags checked during peak times at our large airports, TSA will almost 
certainly need to employ a variety of deployment strategies. It takes 
significantly more time to reconfigure an airport baggage system to 
accommodate one or more in-line EDS machines than to place an EDS in 
the airport lobby. However, all EDS machines cannot be installed in 
airport lobbies. Among the strategies being considered to meet the 
December 31st deadline are the integration of EDS machines into the 
baggage system, and, as an interim solution, use of a combination of 
explosives trace detection and EDS machines installed in the lobby.
    The task of installing EDS machines will vary by each airport's 
physical plant and operations. This is why it is imperative that 
airport operators be key players in this process. On February 1, 2002, 
TSA announced it will study security procedures and processes at 15 
selected U.S. airports, over the next 6 weeks. The results of the study 
will be used to achieve security improvements at all airports with 
commercial service. This step is of enormous importance because it 
begins the process of understanding how to reconfigure the lobbies and 
baggage systems at more than 400 U.S. airports so that 100 percent of 
the checked baggage will be screened effectively and efficiently by the 
end of the year.
    Clearly, there are significant challenges associated with meeting 
the December 31st deadline. With all that needs to be done, we 
recommend TSA consider developing a plan in the next 60 days for at 
least the top 81 airports (Category X and I), detailing what equipment 
they will need, where the equipment will be installed, a timeline for 
accomplishing the installation, how passengers will be processed 
through the system, and potential effects on air carrier operation. 
This would be a logical step that builds on TSA's February 1st 
announcement and will help TSA in meeting the May 18th deadline for a 
report to Congress on a plan for deploying EDS at all airports.

EDS Equipment Must Be Fully Utilized
    TSA must ensure that the equipment that is deployed is used to the 
maximum extent possible. We have repeatedly testified since 1998 about 
the underutilization of deployed EDS equipment. FAA has calculated that 
significantly less than 10 percent of bags checked during 2000 were 
screened by an EDS machine. Although the machines are far from being 
used continuously, we have seen a steady increase in utilization since 
our testimony in November, when we reported that only 27 percent of the 
machines we observed were in continuous use. As part of the Secretary's 
zero tolerance initiative, we have been observing the use of certified 
EDS machines nationwide. Since November 13th, we have made 212 
observations at 22 airports nationwide and found that now 57 percent of 
the machines we observed were in continuous use as required. However, 
some machines are still underutilized. For example, on January 18th 
during a 1-hour observation, 110 bags were checked by passengers, but 
only 15 of these bags were screened through the available EDS machine.
    We also found that the definition of ``continuous use'' is 
ambiguous and has led to wide-ranging interpretations. For example, at 
one airport we visited, air carrier personnel told us that continuous 
use is achieved when a bag runner is continuously searching for random 
bags and bringing them to a lobby-installed EDS. While this might 
result in the continuous use of the runner, the EDS and its operators 
may be standing idle for several minutes waiting for the runner to 
bring the bag(s). Therefore, some EDS are still not being used to the 
maximum extent possible.
    To get a better indication of utilization, we were able to analyze 
the utilization data for 5 lobby-installed CTX 5500 machines at San 
Francisco from mid-December to late-January, and found the machines 
were screening on average between 503 and 1,038 bags per day. We also 
reviewed utilization data for 9 L-3 examiners operating at 4 airports 
and found the machines were screening on average between 251 and 1,010 
bags per day. These machines are capable of screening at least 125 bags 
an hour in an operational environment. In that FAA estimates that 1 
billion bags are checked each year, TSA must make maximum use of these 
valuable and expensive assets, and ensure that there is a continuous 
stream of bags going through the equipment.
    At each screening location, TSA officials will need to work with 
air carriers to ensure that a continuous stream of checked baggage is 
sent to the machines for screening. Until TSA screeners are in place, 
TSA will also need to monitor screening contractors to ensure they have 
sufficient trained staff available to properly operate the equipment. 
On more than one occasion, we observed understaffed equipment with only 
one employee responsible for operating the EDS machine as well as 
resolving any alarms. This resulted in the machine sitting idle while 
the operator manually searched or used trace units to resolve an alarm.

                 II. HIRING AND TRAINING THE WORKFORCE

    A major challenge facing TSA is the hiring and training of a 
qualified workforce. Recent estimates indicate that TSA will need to 
hire and train over 40,000 employees, including over 30,000 screeners, 
an executive team, law enforcement officers, Federal air marshals, and 
support personnel.
    TSA and FAA have expanded the Federal Air Marshal program for both 
domestic and international flights. Law enforcement personnel from 
several Federal agencies, including the OIG, have been selected and 
trained to augment the Federal Air Marshal program until such time as 
TSA can recruit and train the necessary personnel. TSA has also hired 
an executive recruiting firm to assist it in hiring the initial 81 
Federal Security Directors. These individuals will play a key role in 
hiring and training the screeners and law enforcement officers for 
their particular airports. TSA has issued new airport screener 
qualifications, which require employees to be U.S. citizens and to 
speak and write English. They also require screeners to have a high 
school diploma, a general equivalency diploma, or one year of any type 
of work experience that demonstrates the applicant's ability to perform 
the work of the position.
    It is important to recognize that screeners do more than just 
screen passengers and their carry-on bags at screening checkpoints and 
boarding gates--they also screen checked bags. More screeners are 
needed to operate EDS machines in airport lobbies than to operate EDS 
machines integrated into the baggage system. Use of a combination of 
EDS and trace explosives detection devices to screen checked baggage 
will also require more screeners. Therefore, key to the number of 
screeners required is how many and what kinds of equipment are to be 
deployed at each airport.
    TSA does not expect to begin taking screener applications until 
March or April, with the heavy emphasis for hiring starting in May and 
working through the summer. Assuming TSA does not begin hiring and 
training until May, it would need to hire and train approximately 5,000 
screeners per month from May through October in order to have 30,000 
screeners hired, trained and on the job by the November 19th deadline.
    Before TSA establishes a workforce, it must assume the current 
screening company contracts from the air carriers by February 17th. TSA 
will then have to oversee these contractors until TSA screeners are 
hired and trained. Since airport screeners must now be U.S citizens, 
and able to speak and write English, a significant number of the 
current screening workforce will not qualify for screening positions 
with TSA. During the transition, it will be a challenge for TSA to 
motivate the contractors and screeners who will not be picked up by 
TSA. For example, it is estimated that at Dulles International Airport 
up to 80 percent of the current screeners will not qualify for 
employment with TSA. It is clear that TSA is trying to address this by 
setting employment requirements that will allow it to hire as many 
current screeners as possible. However, it is unknown how many current 
screeners will qualify for the new positions. In addition, as the 
Secretary's zero tolerance initiative has shown, dangerous items 
continue to get through screening checkpoints and onto aircraft, so 
even current screeners that remain will need additional training to 
bring their performance up to an acceptable level.
    TSA used private industry and academia as well as individuals from 
other Federal agencies to develop its Training Plan for Airport 
Security Screeners, issued January 18th. This training plan envisions 
airport screeners receiving 40 hours of classroom training, followed by 
60 hours of on-the-job training. TSA intends to measure screener 
performance throughout the training process with examinations to track 
performance. Once a screener has worked in the airport environment for 
at least 6 months and demonstrated his or her skills through 
achievement examinations and/or skills tests, TSA plans to issue the 
screener a TSA certification.
    Once a screener is certified, TSA plans to provide recurrent 
training and testing to ensure screener performance remains at an 
acceptable level. TSA will use a learning management system to track 
the progress and performance of all airport screeners. TSA can employ, 
appoint, discipline, terminate and fix the compensation, terms and 
conditions of Federal service for individuals carrying out the 
screening functions. In addition, the Act does not require TSA to give 
airport screeners normal job protections afforded to regular Federal 
employees, and screeners could be fired for not doing their job. We do 
not know at this time how TSA intends to implement or use this 
authority, as it has not established the performance standards that 
screeners must meet as a condition of employment.

                  IV. FINANCING REQUIREMENT OF THE ACT

    There are tremendous budgetary challenges facing TSA for this year 
and next, and it is increasingly clear that the cost of good security 
will be substantially greater than most had anticipated. The cost 
implications are both in terms of capital costs for equipment and 
operating costs for personnel, which will be driven by the sheer number 
of Federal screeners, Federal law enforcement officers, and Federal 
security managers that will be needed.
    In terms of capital costs, the requirement that all checked bags 
undergo EDS screening by December 31, 2002, carries a large price tag. 
However, the estimates vary widely depending on the mix of equipment 
and personnel used. FAA estimated that approximately 2,000 certified 
EDS machines at a cost of around $2.5 billion would be needed in order 
to screen 100 percent of checked bags with certified EDS equipment. 
This estimate does not include the additional costs to integrate the 
equipment at the airports, which could exceed $2.3 billion depending on 
the nature and type of structural changes required to install EDS.
    Other options are being considered, however. For example, TSA is 
looking into using a higher percentage of trace units in airport 
lobbies in lieu of using all 2,000 EDS machines. This option would have 
lower estimated equipment costs ($1.9 billion) but would require a much 
higher number of screeners to operate.
    Regardless of the mix TSA uses, it is clear that the agency will 
need additional funding to purchase the necessary security equipment--
so far only $293 million has been appropriated in FY 2002 for EDS 
equipment. However, the ultimate funding needs of TSA will be most 
affected by who assumes the costs of integrating the equipment--
airports or TSA--and how it will be paid for. This is especially 
relevant for determining who will pay the costs of integrating 
certified EDS equipment into airport baggage systems.
    In terms of operating costs, the costs of salaries, benefits, 
training, and overhead of an organization that will exceed 40,000 
employees are significant. However, determining the cost is dependent, 
in part, on the mix of equipment that TSA ultimately will use to meet 
the December deadline. We have seen estimates that TSA's operating 
costs in FY 2002 could range from $1.6 billion to $1.8 billion based on 
hiring, training, and deploying a Federal workforce of over 40,000 
employees by the November 19th deadline.
    However, those operating cost estimates are only for part of the 
year, assuming that hiring of screeners would begin in May. Costs will 
be substantially higher when TSA must pay salaries for a full year. For 
FY 2003, operating costs for TSA's workforce could range between $2.7 
billion and $3.3 billion.
    Given the wide range in possible costs, TSA needs to bring clarity 
to its financial needs for FY 2002 and 2003. The Aviation and 
Transportation Security Act set out a variety of sources for funding 
security needs. These include revenue from fees, appropriations, and 
airline contributions, as well as changes to how airports can use grant 
money and passenger facility charges. However, it is unclear who will 
pay for what and in what amount.
    Congress created a new passenger security fee of $2.50 per flight 
segment with a maximum of $5.00 per one-way trip or $10.00 per round 
trip. Based on the latest projected enplanements for FY 2002, this fee 
could generate about $1.0 billion this year and as much as $1.7 billion 
in 2003.
    Congress also provided the Under Secretary of Transportation 
Security with the authority to impose a fee on air carriers in case 
revenues from the new security fee are insufficient to meet the needs 
mandated by the Act. However, Congress capped that fee at the total 
amount spent by air carriers for screening passengers and property in 
calendar year 2000.
    As shown on the chart below, we estimate that TSA currently has 
funding of about $2.0 billion to $2.3 billion for operating and capital 
costs in FY 2002. That funding consists of revenue generated by the new 
security fee and FY 2002 initial and supplemental appropriations. The 
differences in the revenue estimates are based on whether a fee is 
imposed on air carriers and, if so, how much. The Department has 
estimated that the airlines spent upwards of $700 million for screening 
in calendar year 2000. Our estimates assume no contribution from the 
airlines to as much as $300 million, assuming that collections begin in 
May and are apportioned as required by the Act ($700 million x 5\1/2\). 
TSA is in the process of preparing a rule to obtain actual 2000 costs 
from the air carriers.

                   TSA Funding Sources for FY 2002\3\
                             [$ in millions]
------------------------------------------------------------------------
                       FY 2002                           Low      High
------------------------------------------------------------------------
Security Fee........................................    $1,038    $1,038
Airline Contribution................................         0       300
FY 2002 Appropriations for Civil Aviation Security..       150       150
FY 2002 First Supplemental..........................       452       452
FY 2002 Second Supplemental.........................       100       100
                                                     -------------------
  Subtotal: Operations Funding......................    $1,740    $2,040

FY 2002 Appropriations for EDS......................        97        97
FY 2002 Supplemental EDS............................       196       196
                                                     -------------------
  Subtotal: EDS Funding.............................      $293      $293
                                                     -------------------
    Total Funding...................................    $2,033    $2,333
------------------------------------------------------------------------
\3\ In the FY 2002 Appropriations for the Department of Transportation,
  Congress provided $1.25 billion from the General Fund for the TSA.
  However, Congress stipulated that the amount is to be offset by any
  collections from the new security fee and, as a result, cannot result
  in any actual expenditures from the General Fund.

    Mr. Chairman, clearly TSA's costs substantially exceed revenues, 
and Congress should expect a request for a supplemental appropriation. 
For TSA's part, the agency needs to develop its plan for meeting the 
December deadline and deliver credible cost estimates, so that Congress 
and the Administration can determine how these additional costs can be 
funded. The means for bridging this gap need to be clarified--whether 
it is accomplished through airline contributions, additional fees, 
grants-in-aid to airports, passenger facility charges, and/or 
appropriations. There is significant confusion over who will pay for 
what, in what amount, and from what funding source.
    As TSA reviews and purchases new aviation security technology, it 
must avoid the potential pitfalls of purchasing a significant amount of 
equipment that will not fit into the ultimate security structure. When 
purchasing and deploying equipment, TSA needs to evaluate the cost, 
effectiveness, maturity, and efficiency of each type of equipment to 
ensure it gets the highest pay-off in improved security for the funds 
spent.
    Given the large budgetary requirements, it is important that TSA 
have good cost controls. Vendors are very aware of the immense amount 
of equipment that will need to be purchased. As TSA begins reviewing 
its capital needs, vendors are lining up with a vast amount and array 
of equipment. Given the extremely tight timeframes and the large 
budgetary implications, it is imperative that TSA ensure its 
acquisition process is free from fraud, waste, and abuse.
    This concludes my statement. I would be pleased to answer any 
questions.

    The Chairman. You said TSA, when they take over, then 
they'll start using the machines. We've been through this. 
We've heard you before on this score, that you've got the 
machines. I think that some 52 airports have 165 of those 
scanning machines, EDS machines.
    Well, Mr. Magaw, why haven't you been using them? You see, 
my frustration is you all act like nothing's happened for 
months, and today we're going to start with security. Not so at 
all. We, at the Committee and at the Congressional level, have 
been frustrated with the lag, and the time it's taken. In fact, 
we confirmed Mr. Magaw without debate. We said, ``We just can't 
wait on it, and let's get going.''
    So why--when you use the expression, ``When TSA takes over, 
they're going to finally start using the machines,'' that's the 
kind of testimony that frustrates me, Mr. Mead. What do you 
mean by that?
    Mr. Mead. I mean that before--you've heard this testimony 
before----
    The Chairman. Right, and why haven't we gotten it done?
    Mr. Mead. Because before September 11th, the rules in place 
about how often the machines had to be used resulted in a very, 
very small percentage of bags being screened. After September 
11th, they established a rule that the machines had to be 
continuously used. You would think, for most people, that 
``continuously used'' would have a commonly acceptable 
definition.
    The Chairman. Right.
    Mr. Mead. It does not.
    The Chairman. Why not?
    Mr. Mead. Because some people--some screening stations--
have interpreted it to mean that you will always have a bag 
going through the machine. Another screening operation will 
say, ``Well, that means that you have to have the machine 
operating, but not necessarily a bag going through it''. And 
it's just a very ambiguous term. It is true that, especially 
since November, when you passed this law, we've seen a steadily 
increasing usage, but it still is very uneven.
    The Chairman. Well, get rid of the Philadelphia lawyers 
that want to get picky about what's ``continuous.'' Come on.
    Mr. Mead. Yeah, I----
    The Chairman. Let's get it done. That's why we got you 
folks in charge. That's easily solved.
    Otherwise, the pay is easily solved. All the testimony 
indicated that the American public was willing to add $20 onto 
a ticket--or up to $30 or whatever else--in order to get 
security. And when you're paying $900 for a round-trip coach 
ticket from, let's say, Washington to Charleston and back, 
well, what's $5 more? In other words, the $2.50 not to exceed 
$10 for any complete trip. Let us know how much money you need 
and we can get it passed. We'll put it in there. Don't start 
coming back up here later and saying, ``We didn't have the 
money.'' Uh-uh. That's no excuse. Is that understood, Secretary 
Jackson?
    Mr. Jackson. Yes, sir. We----
    The Chairman. Did you understand that, Mr. Magaw?
    Mr. Magaw. We're going to get the job done.
    The Chairman. Now, another thing, with respect to the 
cockpit, I can see Senator Burns and myself sitting there with 
the chief pilot of El Al just where you folks are seated at 
that table. And he said, ``Senator, we secure that cockpit, and 
once it's secured, we never open it in flight. My wife can be 
assaulted in the cabin. I don't open the door in flight. I go 
immediately down and land the plane. And whoever's causing the 
difficulty, killing or whatever else, is immediately taken to 
jail.'' And they haven't had a hijacking in 30 years.
    Now, we've got the cockpits secured. Where's the rule that 
it shall not be opened in flight? Secretary Jackson, what's the 
matter with that?
    Mr. Jackson. Well, the configuration that El Al is using 
allows for a pilot to come out and to use the restroom 
facilities during flight given the design of that door. Our 
national airlines do not have that capacity, have not had a 
structural change to accommodate that. So----
    The Chairman. Yeah, but we don't have to wait for a 
construction change. Put a little potty in there or whatever 
else.
    [Laughter.]
    The Chairman. I can tell you now, I've flown recently, from 
Honolulu to Sidney, Australia--11 hours, it was, and nobody 
came out of the cockpit. So let's get it done, and then you 
don't have all this palaver about nuclear power plants. From 
then on you will not have a commercial airline used as a bomb, 
a missile. You don't have to worry about the high buildings.
    Now, yes, general aviation is a concern, and there's some 
question about a little private plane was used down there, I 
think, in Tampa, Florida. It didn't do too much damage to the 
building, and I go along with that rule about Reagan with that 
on general aviation, but once you get the cockpits secured, you 
can just fill up Reagan National. We're not running this thing 
right. We're not on the ball. I find a lot of study and no 
action. I mean, we didn't assign it to you folks to study it.
    Mr. Jackson. Mr. Chairman, this----
    The Chairman. Get it done.
    Mr. Jackson [continuing]. Could be one where we haven't 
communicated effectively to you. Immediately after September 
11th we sat down with the airlines, we studied it for a couple 
of days, and we gave them the instructions to get to work. They 
did so enthusiastically. And virtually every commercial 
airliner from--certainly from all the major airlines--have 
reinforced cockpit doors today which bar and lock the door in a 
fashion that is a significant enhancement to what we've got.
    The Chairman. And not to be opened in flight? You've hit 
the ball, but you haven't followed through.
    Mr. Jackson. Well, that opening the door remains that other 
biological problem that I mentioned earlier.
    The Chairman. Well, everybody knows what the biological 
problems are, but we are worried about commercial airlines 
being used as a missile----
    Mr. Jackson. Yes, sir----
    The Chairman [continuing]. A weapon of mass destruction. So 
when that problem is solved, the Reagan National problem is 
solved, the nuclear power plant thing is solved, just through 
getting that order by. It's done with El Al. Why can't we do it 
with our airlines?
    Mr. Jackson. It's a significant reconstruction of the 
cockpit to take the approach that El Al has done, and that is 
something that we are looking at in a rulemaking that would 
allow for structural changes to aircraft to accomplish that 
more comprehensive change.
    The Chairman. While you folks are studying it, I think 
we'll just have to put in a rider and order it ourselves or 
something to get it done, because I know it's inconvenient in a 
way. But with the choice between being killed and 
inconvenienced, let's not get killed. I mean that's the whole 
idea of security.
    Otherwise, with respect to these machines, you can keep 
studying them, but you haven't ordered any, and here it is 
February. We started this in September. We passed the 
legislation. It was held up over there on the House side, but 
we finally got it done, and you all haven't ordered the 
machines. Senator Boxer says they make them out there in 
California, and they're willing to gear up. I think if they 
went around in three shifts, they could double the existing 
plant production and get the machines going, but they haven't 
got an order yet and this is February. What's the matter?
    Mr. Jackson. We spoke to the three manufacturers last week 
and told them that we're prepared to give them a letter 
agreement to start a very significantly enhanced production 
capacity for the two certified firms. That's 100 machines 
immediately to order. They are meeting with us this week on the 
delivery schedules and their performance for this.
    Both of those two certified manufactures have some problem 
that they had to solve prior to us ordering additional 
equipment from them--deficiencies in the certification 
performances that they had to meet.
    There's a third manufacturer which we believe has a very, 
very strong chance of completing certification, and we've told 
them last week that we are prepared to initiate an immediate 
order for them as soon as their certification is complete. So 
we have made a very significant step forward here.
    In addition, we have outlined the approach in which we are 
going to create a mechanism to acquire all the remaining number 
of machines that we need through the end of the year. If you 
took all three of those manufacturers, they could not, among 
themselves, produce the number of machines we need. So we did a 
study about how to deploy them, the mixture of technologies 
that we need to make the EDS equation work, and a process that 
we're going to put in place that's going to allow us to use the 
intellectual property of these manufacturers to produce enough 
machines by the end of the year.
    We'll hit the end of the year target. We're well under way, 
and we've got a lot ahead of us to do, but we've, I think, got 
a good plan for us to move forward.
    The Chairman. Well, then it was finally here in February. 
But in any event, my listing here: Senator Wyden, Hutchison, 
Burns, Rockefeller, Smith, Cleland, and Snowe.
    Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman. Mr. Magaw, can you 
rule out at this point that the agency is going to use airlines 
to supervise airport security checkpoints? I have read most 
recently in this morning's Wall Street Journal--that the agency 
is considering doing that. And I would be very concerned if 
that was the case, and I wanted to see if you'd just rule it 
out this morning.
    Mr. Magaw. I didn't quite understand your question, sir.
    Senator Wyden. Let me read it to you. ``A spokesman for the 
Transportation Security Administration, James P. Mitchell, 
declined to comment on whether the agency plans to use airlines 
to supervise airport security checkpoints.''
    That was in this morning's Wall Street Journal, and it 
relates to a report that's been discussed that the agency is 
concerned about what it would do in the short term. I'd be 
troubled if that was the case, and I would like to give you the 
chance to rule it out, that you're not going to use the 
airlines.
    Mr. Magaw. Well, when we take the contracts over on the 
17th of this month, you have to start out using the basis of 
what you have there. What we're going to do is put a Federal 
officer in there on those--right at the time it starts and a 
few days before--to oversee it. But in terms of--and to 
evaluate it to make sure that if there are--if there needs to 
be more training, if some of the employees need to be relieved, 
if, in fact, the whole unit needs to be relieved, we will do 
that.
    Some of the ground security coordinators and other titles 
that the airports and airlines use--some of those people will 
be used to help supervise that until we can hire a work force 
and train that work force.
    Senator Wyden. I want to make sure I understand it. You're 
saying then that in this transition period, you all would pay 
the airlines to oversee the security checkpoints because you 
think that would be necessary in the transition.
    Mr. Magaw. It'll be different in some of the airports, but 
it--if that is the best supervision that we can get as we're 
hiring and bringing people onboard, that's what we will do. 
Some of those airline supervisors are very, very good in terms 
of backing up those security checkpoints. You'll also have--
continue to have your law-enforcement unit there, and you'll 
continue to have the National Guard. So what combination of 
that can serve that airport the best as we hire and train the 
Federal work force.
    Senator Wyden. I don't think that was envisaged. And if you 
could give us a report, I would like to see specifically how 
that's going to take place, because this law is now in a very 
key period with respect to implementation, and if we're paying 
the airlines, even for a short period of time, to oversee these 
security checkpoints, I can tell you a lot of my constituents 
are going to be concerned about how that is being done. And 
would you just give us, in writing, how you envisage that 
taking place?
    Mr. Magaw. Yes, sir.
    Senator Wyden. Alright. The second one I want to ask you, 
again going at this continued report, deals with how you're 
going to finance these contracts with the private companies. 
There's been a report that this could eat up your entire 
budget, that these private contracts look like they're coming 
in with very large financial cost, much higher than was 
originally envisaged. Could you tell us what you are budgeting? 
I know your budget for this year is $1.25 billion for the whole 
operation. And the reports are that just these private 
contracts could eat up a big chunk of that.
    Mr. Magaw. And they will eat a big chunk of that up. The 
way it's being set up, though, is that it's still trying to be 
as competitive as we can, competitive bidding, and those 
contracts are all being looked at now by our legal team being 
prepared to take those over on the 17th. And some of them will 
be higher than others, but we're going to do the best job we 
can of making the competition as good as we can and as strong 
as we can so that we will have a competitive bid.
    Senator Wyden. Do you anticipate, as a result of the costs 
of just this part of the law, that you're going to fall far 
short in the first year of having enough money to implement 
this law?
    Mr. Magaw. This would be a part of causing us to fall 
short. Yes, sir.
    Senator Wyden. And you anticipate falling short, then.
    Mr. Magaw. I anticipate that we will fall short.
    Senator Wyden. How much short are we going to be?
    Mr. Magaw. We hope in another 60 or 90 days we'll have 
that. The reason that we don't have it now is we've got to see 
how the bids on the machines go, and then you've got to see 
what construction has to be done at each airport in order to 
accept those machines, whether it's supporting the floor or 
tearing walls down in order to get them in, what is the 
installation going to cost us? In each area of the country, it 
will be somewhat different.
    And since 9/11, the security companies and the airlines 
have, in some cases, tripled their security force--in most 
cases, doubled it--so that we just don't have a handle on the 
total cost yet.
    Senator Wyden. I want to ask one other question, Mr. 
Chairman, and I very much support what you and Chairman 
Rockefeller have done in this area. This is pretty troubling 
stuff, because the screening companies certainly are going to, 
in the early stages, play a key role. It looks like now that 
just those contracts are going to chew up a big chunk of the 
overall budget. On top of that, we were told that apparently 
the airlines are going to get to supervise, to some extent, the 
airport security checkpoints, and I'd just like to follow this 
up with you, Mr. Chairman and Chairman Rockefeller, so we can 
get more details, and I wanted to ask just one other question 
if I might.
    Mr. Magaw, in December, I asked you about the act's 
requirements to establish procedures for the security screening 
of people who provide the ground service. We're talking about 
catering, the supplies that are put onboard. You said that some 
steps had already been taken, but that you were going to follow 
that up. What else can you tell us about establishing security 
screening for ground services and how long it's going to take 
to establish these procedures?
    Mr. Magaw. We have established some fairly competent 
procedures right now, but for me to discuss those in an open 
forum would just alleviate what we've already done. And I can 
tell you this, that from the time that--whether it's a truck or 
whether it's a person or whether it's a food product or 
whatever it is, enters that compound it's checked two or three 
times before it gets on the plane. And while I'm not satisfied 
that it's done as well in some airports as others, as soon as 
we get that Federal supervisor in these airports, then we will 
start taking--examining these completely and making sure that 
they're the same.
    Senator Wyden. All I was interested in knowing, because, of 
course, confidentiality is key, is when you would expect to 
have those rules in place--that's what we talked about in 
December.
    Mr. Magaw. The working part of it is already in place. 
We're reviewing the rules now to make sure that it covers all 
the area. But we--every airport in the country is protecting 
those items now.
    Senator Wyden. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Hutchison.
    Senator Hutchison. I'm going to allow Senator Burns, 
because he has to leave, and then I'd like to come after--in 
the next round.
    The Chairman. Alright.
    Senator Burns.
    Senator Burns. Thank you very much. I--my question--and I--
is more or less of a comment. In Montana--I want to give you an 
instance that John Seymour, the airport director at Missoula 
Airport at Missoula, Montana, built a blast wall to FAA 
specifications--to parked cars, you know, on the parking lot, 
that's just right across the street from the terminal. They 
built it to their spec, and then the FAA went out there and 
said, ``It's good for little cars, but you can't park pickups 
and SUVs there.'' And that wasn't even in the specs. How do we 
deal with those kind of situations, Mr. Jackson?
    Mr. Jackson. Send them straight to me or to John Magaw, and 
we'll look at them and make sure that common sense prevails.
    Senator Burns. Well, I mean, before they built them, 
though, I mean----
    Mr. Jackson. That sounds like a mess-up to me, Senator. I'm 
not going to make any excuse for it. If we gave a specification 
for what was going to be necessary to meet that blast 
protection, it should have included SUVs and larger vehicles to 
begin with.
    Senator Burns. And then we have a situation in Billings 
where you--we have to have security people to look at the cars 
and then you can park within that 300-foot range. Is that rule 
still in place?
    Mr. Jackson. The 300-foot blast rule is in place, but we 
have given exceptions in something like 170 airports, and we 
exempted all the smallest airports to begin with from the rule 
altogether. So we really are prepared to look on a case-by-case 
basis to meet this test of trying to find some common sense 
protection, but reasonably not make sure you park in a cow 
pasture two blocks away to do the job.
    We'll work with people. We are very eager to do this. The 
Secretary has written to every airport director covered by our 
mandate and said, ``If you have a problem, let us know. We want 
to work this issue with you. We need to make this balance work, 
but we want to work with you.''
    Senator Burns. OK. And in the EDS system, we've already 
heard pretty much from that, because there are some areas in 
some airports that will never have an EDS facility. So I'm just 
saying right now that I think we've got to be a little bit--
we've created this monster, and we've got to make it work 
someway or other, but I think we'd better be prepared on a 
case-by-case basis, because airports are kind of like people--
there ain't two alike.
    Mr. Jackson. That's exactly right.
    Senator Burns. And so we have to just do some--work along 
that line, and I appreciate that situation where we can make 
some case-by-case movement on that.
    Mr. Magaw. Once we get that Federal security----
    Senator Burns. And I think my--yes?
    Mr. Magaw [continuing]. Director into each one of these 
airports, which the hiring process is taking place now, a lot 
of----
    Senator Burns. How many people do you figure you're going 
to have to have?
    Mr. Magaw [continuing]. These things will go away. Pardon 
me?
    Senator Burns. How many people do you figure you're going 
to have to have what with the screeners and security and 
everything else?
    Mr. Magaw. Well, the--I'm just talking about the Federal--
--
    Senator Burns. Oh.
    Mr. Magaw [continuing]. Security director that is going to 
be at every airport. In terms of the examiner--or the 
screeners, that's going to vary, depending on the size of the 
airport.
    Senator Burns. OK.
    Mr. Magaw. But as soon as we get that director----
    Senator Burns. Thank you. And I want to thank you, friend 
from Texas, for yielding. I just wanted to bring up those two 
cases that are very concerning to us.
    The Chairman. Senator Hutchison? You all just swapped 
places. You were next.
    Senator Hutchison. Is that correct?
    The Chairman. Yeah, Senator Burns----
    Senator Hutchison. I'm not displacing----
    The Chairman [continuing]. Just followed you.
    Senator Hutchison. OK.
    The Chairman. So just swap places.
    Senator Hutchison. Alright, thank you, Mr. Chairman.
    The Chairman. Yeah.
    Senator Hutchison. Let's go back to the issue of connecting 
flights on the checking of screened bags. We all know that 
probably the least favorable option is the passenger match for 
meeting the requirement. What we all want is the right 
technology and have all of those installed, and that will then 
displace all of these other issues.
    However, until we get to that point, why can't you check 
the manifest on a connecting flight and have some capability to 
take a bag off if a passenger doesn't show up? Why is this? Are 
you not able to do it or are the airlines not able to do it, or 
willing to do it?
    Mr. Magaw. We're having a meeting this afternoon, Senator 
and I believe that the airline committee, which is the heads or 
the number-two persons in their airlines or--and also the 
airlines--some of the airline committees--are coming in to see 
us at 5:30 today. One of the items, the first one on 
discussion, is we must do a pilot, we must see how we can do 
this, and give us your best ideas and thoughts because we're 
going to do it.
    Now, the problem--one of the--the huge problem is, coming 
off of an aircraft, it may be going to 40 different flights, 
and going to 40 different flights in seven or 8 minutes. And if 
they don't have the technical ability, the hand computers and 
that to scan that bag and scan it into their system, there's 
just no way they can do it.
    There--but I--well, we're going to do a pilot. We're going 
to do a pilot that will give us a total picture of what we can 
do and what we can't do. And we'll be prepared to report that 
back to you as soon as it's finished.
    Senator Hutchison. OK.
    Mr. Mead. You know, I think there's an interesting 
dimension of this. You'll recall last year when we were having 
a customer-service debate, back when we were having delays and 
excess cancellations and so forth--remember one of the airlines 
commitments----
    Senator Hutchison. That seems like a long time ago----
    Mr. Mead. It does.
    Senator Hutchison [continuing]. Doesn't it?
    Mr. Mead. But remember, one of the airlines' commitments 
was to deliver baggage that was lost to you within 24 hours. 
Remember that? You'll recall, I think, that particular 
commitment.
    Well, in the process of gearing up to meet that commitment, 
many of the airlines had to establish systems to track the bags 
so they could get it to you within 24 hours. And I don't think 
the issue is so much whether they can match the missing 
passenger with the bag as it is getting the bag----
    Senator Hutchison. Getting the bag off----
    Mr. Mead [continuing]. Off the plane.
    Senator Hutchison. Uh-huh.
    Mr. Mead. And I would hope that they would pursue a pilot 
program, and they could establish what these logistical 
problems really are.
    Mr. Magaw. And their systems don't talk to each other, so 
if you're going from one airline company to another on a 
transfer, their systems don't match. So we're going to really 
look at all of this to see how we can make it work better.
    Senator Hutchison. Well, I'm very glad you're pursuing it, 
because I think it is a glaring hole in the system.
    I would also ask you to consider some form of baggage check 
at the gate for people who would be leaving one airline and 
going to another. When I have traveled in Europe, they will 
scan a bag right at the gate. Now, that's a carry-on bag, but 
it can also be a checked bag. I don't know if that's feasible, 
but I would just like to ask us to look for every opportunity 
to have that connecting-flight loophole closed. And I'm glad 
you are forcing a pilot, and hopefully you'll learn enough that 
perhaps it can be more widespread in use.
    I'd like to ask you what the status is of what has now been 
called, I guess, the ``trusted traveler security card,'' where 
a person could volunteer certain information, have a card that 
would be tamper-proof with either a retina or some other form 
of identification that would allow a person to have an 
expedited clearance and hopefully shorten the line for 
everyone. Where are you on that, and is it part of your plan?
    Mr. Magaw. What you have just described is very feasible, 
that the--as long as there is the bio-check with the 
fingerprint or the iris. But my problem right now is what does 
that gain for us? Are we going to keep them from having their 
bags screened? Are we going to let them go through the carry-on 
without having their bags screened? Are we going to isolate 
them in a line where there are going to be the ``haves'' and 
the ``have-nots''?
    And if you come up with a system like that, which is--it's 
not hard to do--the technology is there, and the equipment is 
there--and certainly--I know this Committee, if we could show a 
way to do it, that you would fund it--but my whole problem is, 
this may be, you know, not as good as it looks to be. It may be 
a convenience, but, in terms of security, I don't see it really 
helping us, because I would not be willing to--unless I was 
ordered to do so--would not be willing to allow the baggage to 
go unchecked or have your hand-carried unchecked.
    So I don't really see the benefit of it, in terms of 
security. But as we go forward, we'll continue to look at it to 
see if there is a benefit to it.
    Senator Hutchison. What about allowing non-passengers to 
have this kind of identification, so people with children or 
elderly parents or people who want to be able to go in to be 
helpful with a passenger. What about this as an expedited 
interim measure to help the airports get back to a more normal 
situation?
    Mr. Magaw. Yeah, on the surface, that sounds very practical 
and very considerate of families, and I don't have an objection 
to those people going on and meeting their families.
    I do have a problem with this card, though, because what 
will happen is that the--there is no hurry for the terrorists. 
The soup of revenge is best enjoyed cold. They will come into 
this country. They will live here seven or 8 years. Some of 
them will end up with these cards. And then we have a problem 
that is worse than we have now.
    So what I'm--what I want to do is not create something now 
that will give us problems eight or 10 years down the road. I 
want to try to be careful of that.
    In terms of families, certainly families should be able to 
go and greet. I think we ought to keep it to a reasonable 
number. I mean, I--sometimes they show up with 30 and 40 people 
when families come. But we certainly can work some things out 
there.
    Mr. Jackson. I think once we have our Federal work force on 
the ground, we are going to look at those procedures to make 
sure that the existing processes which does allow the 
accompanied child, et cetera, to come onboard, work more 
efficiently. So we know that's an issue to look at. You've 
raised that with us, and we certainly are eager to look into 
that with our own staff.
    Senator Hutchison. Thank you, Mr. Chairman.
    The Chairman. Senator Rockefeller.
    Senator Rockefeller. Thank you, Mr. Chairman. I associate 
myself with the remarks of Senator Hutchison on the connecting-
baggage question, so I won't go on on that.
    When you were just discussing those smart cards, Mr. Magaw, 
you were not, however, discussing, I hope, that ability to 
check through thumb-print, iris, retina, facial scan, whatever, 
even inside a palm--palm prints. The ability of a screener, 
should that screener find something to his or her displeasure, 
to be able to immediately--and I'm talking in the next several 
years--to be able to check with national intelligence 
agencies--FBI, foreign intelligence agencies--whether the name 
that that person has given you, should you ask for it--or 
should there be no such transaction, information about that 
person to find out if that person in fact, has a history, is 
dangerous, or is wanted for some wrong act in some other 
country, much less our own. And we call that biometrics.
    Now, biometrics can or cannot include something called a 
``smart card,'' but the whole question of identification, it 
has always struck me--and, in fact, it's in the bill that 
there's a 20-airport program to test new types of technologies 
from biometrics to smart cards.
    So I don't think we can dismiss that out of hand. I've 
always believed that if you want realtime identification of a 
dangerous person coming through a screener, and the screener 
has a question or sees something, and you've got this 
identification, which is absolutely foolproof--there have been 
no retinas or irises or palm prints or fingerprints that are 
the same in the world--that the identification is absolutely 
crucial to be able to check, when we get to that point, with 
the security folks on a national and international basis. I 
mean, would you not agree with that?
    I think you're trying it in Baltimore. You're trying it at 
a number of other places. I'd like to hear your answer, and 
then, Mr. Mead, I'd like to hear your answer to this.
    Mr. Magaw. You know, Mr. Chairman, your observations there 
are absolutely correct. The way I interpreted the question to 
be asked, though, was, ``Couldn't we have a card like that that 
would cause people to be able to go through and''----
    Senator Rockefeller. And I understood that, but I want to 
clarify this----
    Mr. Magaw. Alright.
    Senator Rockefeller [continuing]. Other point, because your 
answer could have been read differently.
    Mr. Magaw. That's right. You're correct, sir.
    Senator Rockefeller. Yeah.
    Mr. Mead.
    Mr. Mead. I think it's important to pursue, whether it's 
retina, biometric, or a palm print or thumb print or index 
print. I think that's important to pursue. I think it is a 
secondary issue--the smart-card angle on that seems to me to be 
a secondary issue, because some judgment is going to have to be 
made about what type of background check would be involved in 
giving somebody a smart card that would allow them some 
clearance in security. But I agree fully----
    Senator Rockefeller. I'm not questioning smart cards at 
this time.
    Mr. Mead. I agree fully--that's a technology that ought to 
be pursued.
    Senator Rockefeller. OK. The second question is just off in 
another direction. I travel--I don't have the luxury of 
traveling on regional jets. I think that Chairman Hollings and 
I share that joy, and we untwist our spines, et cetera, as we 
get out of our prop aircraft.
    Now, what's interesting to me--two things--I mean, 
obviously, what I'm doing is getting at when are you--are we 
going to get at the food chain which is called either 
Charleston, West Virginia, or Charleston, South Carolina?
    And the second is larger than the first, I'll grant you. 
When I make those flights, there's two things I always notice. 
One is that the comments that Senator Hollings was making about 
tight doors is--they've not reached these airplanes yet. You 
can see through the top. You can see through the bottom. You 
can see through the sides. The doors are frequently opened and 
shut.
    And so it's like all of a sudden my constituents don't--
they're not the same as constituents from O'Hare or, forgive 
me, Atlanta or Seattle or Los Angeles. Now, I'm sorry, that's 
the only conclusion I can draw.
    I assume, you know, that, under God, all people are created 
equal, and I understand that all services don't reach all 
people in equal time, and I accept that and don't expect you to 
fight me on that, because I will agree with that. But it causes 
me concern, No. 1.
    And second, I notice that the stewardess, if we have one, 
which is every other flight, will always go to the back of the 
airplane and sit down. Now, sometimes that's a weight matter, 
if there's only three of us in an airplane, but that was the 
week after September 11th. Now the airplanes are pretty much 
full, and so they go to the back of the airplane.
    And I'm just thinking of the Saudi Arabian airlines that I 
took recently where they had people--as you took off, they had 
two people facing down--it was a larger aircraft, a jet--each 
aisle, looking straight down. They did not have very nice looks 
on their faces. But that made a point. And then all the rest of 
the flight, they sat turned around and they sat facing the door 
of the cabin, and I don't know the condition of that door 
because I didn't try to enter into it.
    But that strikes me as something that ought to be--that 
could be, for a relatively small amount of money, changed--that 
that attendant ought to be--in fact, have her back to the 
door--cockpit door and be looking back at the passengers, 
because there is no guarantee that somebody flying out of 
Pikeville, Kentucky, or Charleston, West Virginia, or 
Huntington or Morgantown, you know, or some other place will 
not have a malicious intent.
    I don't know what physically is required. I don't know what 
the cost would be. But I do know that having the attendant all 
the way at the back of the airline, the last person to be able 
to get anywhere if there's any kind of trouble, with the door, 
which is sort of the semi-see-through door, totally unattended 
is something I don't like.
    And so either it's an end-of-the-food-chain problem--we'll 
get to that when we get to that--or it's something that we 
could do something about, and I'm interested.
    Mr. Magaw. It's clearly something that we can do something 
about. I had the opportunity to have the same experience you 
did a week or so ago, and I will address that.
    Senator Rockefeller. Thank you, Mr. Chairman.
    The Chairman. Very good.
    Senator Cleland.
    Senator Cleland. Thank you very much, Mr. Chairman. Mr. 
Secretary Jackson, let me just pursue this question of 
qualifications of those chosen to be screeners at our--at over 
700 checkpoints. The law says that they shall have a high 
school diploma or a GED. However, I wrote Secretary Mineta 
January 25th expressing my concern that the department seemed 
to be lowering that standard and has substituted--instead of 
``a high school diploma or GED,'' substituted, quote, ``one 
year of any type of work experience that demonstrates the 
applicant's ability to perform the work or the position.''
    Are we dumbing down the system? We don't need to dumb it 
down. We need to smarten it up. What other qualifications for 
these some 28,000 screeners at some 700 checkpoints around 
America and over 420 airports? Are you compromising the law, or 
are you dumbing it down, or are you trying to just deal with 
reality that you don't think you have enough applicants?
    Mr. Jackson. We are absolutely not dumbing it down. We are 
looking for the very best work force that we have the chance to 
grab for these crucial jobs. The statute said we should hire 
people with high school diplomas, GEDs, or other such real-
world experience as the undersecretary determined to be 
appropriate for these jobs. I do not expect that there will be 
large numbers of folks who don't meet that high school diploma 
requirement. We are simply trying not to close a door so that 
if there is some stellar person who has significant experience 
in Hartsfield airport, for example, as a supervisor--and I've 
met some of these type of people--that we could entertain their 
application for this work force, make sure that they are tested 
rigorously, trained, and capable of doing a first-class job.
    So we're not trying to go off in the direction of dumbing 
down by any means. We are trying to put very high standards--
we're going to pay them well. We deserve to get terrific people 
here. We're just going to be open to the idea that a high 
school diploma is not the only way to tell if we get world-
class folks.
    Senator Cleland. Thank you. And, of course, the thrust of 
the whole was to upgrade the system----
    Mr. Jackson. And we absolutely intend to do that.
    Senator Cleland [continuing]. Professionalism, performance, 
and every other way, which brings me--Mr. Magaw, to the 
question of training. You're familiar with the Federal Law 
Enforcement Training Center in Brunswick, Georgia, FLETC, a 
centralized Federalized law enforcement training center. Do you 
anticipate using FLETC in some way, either to train the 
trainers or train a certain cadre or--do you anticipate using 
FLETC in any way in your training of some 28,000 new people 
you're going to hire?
    Mr. Magaw. We're using personnel from FLETC to help us plan 
this using their guidance as we move forward. Their facilities 
are really jammed now in Georgia. We are using one of their 
facilities in New Mexico to help train our Federal air 
marshals. And it's still being discussed, but what looks like 
is going to happen is that we're going to use, not only 
community colleges, but assisting already existing facilities 
around the country, have a cadre which will be trained and--as 
instructors to conduct the instruction there. It'll be 40 hours 
of instruction and then 60 hours of practical application.
    There are two or three methods of testing. They will have 
to test to see that they can practically do the kind of things 
that you need to do, from lifting bags to moving equipment to 
being able to read the equipment to have the right color 
perception.
    And then once they're on, it's a continuous training. We're 
going to see that training never ends and your customer 
courtesy never ends. You can be very consistent, you can be 
very strong on your security. At each installation, each 
airport, we're planning to have a training facility, however 
small or large it might be. When these people--because it is 
a--it tends to be a boring exercise, and we want to make sure 
that during the time that there's a bank of aircraft leaving or 
if it's just one aircraft, if they're screening bags for a 
couple of hours, we want to make sure that they move from one 
station to another every little bit. During their downtime, the 
period between banks, whether it's large or small, we do some 
kind of training virtually every day.
    And we challenge them, and we will get a good work force, 
because the pay scale is going to attract good people, give 
them the opportunity to go into the Federal air marshal 
program, give them the opportunity to become investigative 
personnel, give them an opportunity to become supervisors. And 
those who don't measure up, you've given me the authority to 
release right away, and we will do that.
    Senator Cleland. Thank you. Good for you. The whole sense 
of the law, as I understood it, was the professionalism of the 
force and--in terms of professional--you've been a professional 
law enforcement person yourself--over a long period of time, 
you can be professional and yet you can be courteous----
    Mr. Magaw. That's right.
    Senator Cleland [continuing]. And that's what we're looking 
for.
    Mr. Jackson. Senator Cleland.
    Senator Cleland. Yes, sir?
    Mr. Jackson. Could I ask your forbearance just to say 
that----
    Senator Cleland. Sure.
    Mr. Jackson [continuing]. To your core question about 
FLETC, I'll give you an indication of how much John values 
FLETC's contribution. He went out and recruited their director 
to come work for him, and I'm pleased to tell you that Ralph 
Basham is on the job here, so the FLETC assets are well 
represented in our organization.
    Senator Cleland. And he's a good man, and we're glad the 
country has his services still.
    Mr. Jackson. Yes, sir.
    Senator Cleland. Mr. Magaw, you'll have a Federal security 
director at every commercial airport in the country. I'm just 
curious, will these Federal security directors have a special 
training, in terms of leadership, and maybe the ability to tie 
into this intelligence network so that we can anticipate 
problems before they arise, or we'll see them coming through 
better intelligence than we've had before?
    Mr. Magaw. Yes, sir. When we're bringing the first few 
onboard--well, first of all, when we wrote the job 
description--and when you start any agency, sometimes you're an 
agency of one or two people to start with--and so myself and 
two others actually wrote the job description that Korn-Ferry 
is using. And we have said that we would prefer that they have 
some kind of law-enforcement experience so that they can, not 
only interface with the local enforcement, but also know how to 
carry out the law.
    The second part of that job description talks in terms of 
their ability to manage people, their ability to manage 
budgets, their ability to be creative, their ability to look 
down the road, their ability of common sense. The third part of 
that is people skills, and if--and we're getting some very, 
very good applicants--I mean, some that I wouldn't even have 
dreamed of, and I don't want to mention them yet, because we 
haven't offered them jobs and I want to make sure that they 
come out in the top three of the coming toward--so that we 
abide by the personnel rules.
    But at any rate, once they're, you know, selected, we're 
going to bring them into D.C. for, we think, about a 2-week 
training period. They--we're going to work with them to develop 
the structure for each of the medium, small, and tiny airports, 
go over all kinds of ethics and rules and guidelines and 
regulations, and then we'll send them out to their installation 
with the first instruction, you know, go to the airport 
manager, go the law enforcement head there, go to the airline 
heads there, sit down, and go over the kinds of things that 
they're going to be doing there. So a lot of the things we're 
talking about here will go away when that person comes onboard.
    And so I don't mislead anyone, there probably are a couple 
of airports in the country that are close enough together you'd 
have such a small--one or two or three flights a day--that I 
don't intend to put a highly paid director into--I will use one 
for both of those airports if--we're going to try that.
    Senator Cleland. My time is up. One quick question. Will 
the screeners at the 700 checkpoints be uniformed, and will 
those uniforms be standard nationwide?
    Mr. Magaw. They will be standard nationwide. They will be 
uniformed. It will be a uniform that they will be proud to 
wear. And we're going to build an esprit de corps that will 
make you very proud of this organization.
    Senator Cleland. Well done. Thank you very much, Mr. 
Chairman.
    Mr. Chairman. Thank you.
    Senator Snowe.

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman. Welcome to 
everybody. Obviously, it's of interest to all of us in 
following up on the mandates of the legislation that we passed.
    Mr. Magaw, can you tell the Committee how and when this 
transition will occur with respect to the Federalization of the 
screeners at the airports? I had some roundtables with local 
officials in January across the State and met with airport 
officials, and some of them have yet to be contacted in terms 
of how and when this is all going to occur. I think it would be 
important, frankly to call these airport officials to let them 
know what they can expect, when to expect it, and what should 
they do to begin to prepare for it.
    Mr. Magaw. Now that we do have a skeleton plan put 
together, we did start last week to do conference calls with--I 
think we did about 20 or 21 airport managers, and we're going 
to move that through. And it is important that we confer with 
them from the very beginning, and we intend to do that.
    Senator Snowe. I know you have a lot on your plate, and I 
know they expect to hear from you, but I think the interest is 
in how you expect to meet the deadlines for the Federalization 
of the screeners. Do you think there will be any problems--or 
do you anticipate any problems with making sure that you can 
put the Federal screeners in place by the deadline?
    Mr. Magaw. By the end of the deadline?
    Senator Snowe. Yes.
    Mr. Magaw. I don't. I anticipate there will be a few 
recruitment problems and training glitches here and there, but 
we're going to meet that--we're going to meet that deadline. 
And, of course, the Federalization really starts to take place 
the 5th to 17th of this month, and we'll move forward with the 
training and get the personnel onboard in a timely fashion.
    Senator Snowe. Have you developed a plan for the training 
manual for the screeners?
    Mr. Magaw. It--the basic guidelines have been written and 
approved. The actual teaching manuals, student manuals, and 
that--are actually being written by a cadre of personnel that 
we have recruited both from the private sector and also from 
the Federal Law Enforcement Training Center and a couple of 
other training--high-ranking training personnel from the 
Federal Government.
    Senator Snowe. And what about for the crews of passenger 
carriers? I know there was a mandate in the legislation to 
develop a manual for procedures and guidance in how to handle 
potential threats in the air.
    Mr. Magaw. That guidance was written and was completed a 
few weeks ago, you know, on the timeframe, it's gone to all the 
airlines. The airlines now are using that to develop their 
training, and it's moving forward within the airline industry 
now.
    Senator Snowe. On the explosive-detection systems that have 
been discussed--and I know they have been mentioned in your 
report, Mr. Mead--it's been a consistent problem that those 
that have been deployed in airports have been underutilized. 
How do we expect to turn that around, No. 1? Second, do we 
expect that the manufacturer is going to be in a position to 
manufacture the numbers that are going to be required to be put 
in place in all of the airports across this country? And, 
third, I know there's a plan, mandated by the legislation, 
being prepared for Congress for May to apprize us of the 
progress that is being made. Do you think that will be 
sufficient time to correct any problems or anything that we 
might need to do on that issue?
    Mr. Jackson. We are going to meet the May deadline, and 
we'll have a plan in place before May, and we've already 
launched procurements to begin to get us the first tranche of a 
considerable number of pieces of equipment.
    We're looking at how to manage different types of equipment 
and different manufacturer's equipment in a connected process 
to get this job done, so I think that we will be able to move 
that along effectively. We are looking for an integrator 
contract to help us manage some of the--to deploy, build, 
train, maintain components of this, as well.
    And, finally, on the utilization of these equipments, I 
share the Chairman's frustration and the frustration of Ken 
Mead about the use of this. After 9/11, we put in a mandate for 
the airlines to require them to have continuous-use. It didn't 
get done as well as it should have gotten done. So we have put 
in place, after passage of the act, a new, much more rigorous 
and tough and precise standard so that no lawyers, smart as 
they may be, can second-guess what the objective is here. They 
have to put a report out to us for every piece of equipment on 
the use of that equipment hour by hour, day by day. And we've 
put requirements in place so that if it's staged next to one 
airline that has a period of down time, literally runners from 
another airline bring bags over to feed the machines so that we 
can try to get the maximum number of bags through that piece of 
equipment during the course of a day.
    When our screeners and our people are onboard, we will be 
doing those jobs, and we will make certain that we are 
utilizing this machine, because otherwise it's going to cost us 
a lot more money.
    Senator Snowe. How many machines would be at a major 
airport such as O'Hare?
    Mr. Magaw. Probably 80 or 85.
    Senator Snowe. 80 or 85?
    Mr. Magaw. That's being worked out right now. That'll be 
somewhere--I mean, I could be eight or ten off either way 
there, but that's going to be fairly close in that there--you 
know, the other--you know, we want to make sure we get the best 
price, too, because they can sell for up to a million dollars.
    Senator Snowe. What about cargo and freight and mail that's 
carried on planes? I know we were less than clear in the 
legislation that was passed, but obviously that also represents 
a serious threat. Is there anything that we're doing in that 
regard?
    Mr. Magaw. Well, we are--we're working with the airlines. 
And one of the things that's already a public notice that I 
would talk about is that they are only accepting cargo from 
people that they have done business with long before and that 
they have a knowledge about.
    We still have concern that--who's watching that before it 
comes? And once it gets there in the warehouse, how is it moved 
from there to the aircraft, and what kind of security is on the 
warehouse? If there are not doors that close or gates that 
close and alarms that go off--we're looking at all of those 
kinds of things.
    In terms of the examination of that kind of cargo or to try 
to examine it all is not out of the question in the future 
because there's back-scatter technology that--we pull the truck 
up or a container up and it actually shows everything in there. 
You can place a .45 caliber automatic in there and it will 
outline it for you.
    So the technology is there, but it's very, very expensive, 
and so we're trying to do these other things in the meantime. 
But cargo is clearly something that we have to pay attention 
to, because almost on every passenger jet is cargo. And then, 
of course, there's also the cargo planes that fly nothing but 
cargo, and so those are important to us, also.
    Mr. Mead. We have a report pending on the cargo issue.
    Senator Snowe. Oh, great.
    Mr. Mead. It's footnoted in our testimony. We're not going 
to publicly issue it, but we'd be glad to brief the Committee 
or staff in closed session.
    I should say that when we briefed the Department on the 
preliminary results of that, they moved out promptly to close 
one gap, which was the unknown shipper coming in. At present, 
air carriers cannot transport cargo from unknown shippers. And 
they also tightened up the definition of ``known shippers,'' so 
that you had to be a known shipper for a sustained period of 
time.
    There are still some other issues, but those are two big 
ones that they moved out promptly to correct.
    Senator Snowe. What about perimeter security at some of 
these general aviation airports?
    Mr. Magaw. The perimeter security of almost every airport 
is a concern. It's a concern to the airport enforcement. It's a 
concern to the airport manager. And they are addressing those.
    I was at the Miami Airport last week and spent three or 4 
hours there talking about their perimeter security, talking 
about their screening techniques. And they really have it 
outlined as to what they need to do and what they're doing, you 
know, in terms of closing the gap. So I was pleased with what I 
found there.
    Senator Snowe. Well, I think it's going to be critical that 
we make sure that access to these airports are to known 
individuals.
    Mr. Magaw. Sure.
    Senator Snowe. I think it's going to be critical, I think, 
to overall security in the future.
    Mr. Magaw. That's right.
    Senator Snowe. Thank you all very much. Thank you, Mr. 
Chairman.
    The Chairman. We passed this Aviation Security Act 
unanimously--all Republicans, all the Democrats. Are there any 
changes that any of you three could think of or recommend or 
you think should be done?
    Mr. Magaw. We're looking at that, Senator, now. One of the 
concerns that I have is that, as a law enforcement officer, 
we're looking to see what authority we have to assist the local 
police. In some cases, we're finding that there's been a 
disturbance on the aircraft. When that aircraft arrives at the 
airport, the local law enforcement takes the person off. And a 
lot of times, there is no prosecution. I want that to stop.
    We do have very specific things that we have authority for. 
I'm a little concerned that we might need a tightening up 
there--not to get into the FBI's work of terrorism. Our Federal 
agents who will be on the scene there with the local--if it's a 
terrorism kind of a thing, we will hold--maintain the scene for 
the FBI. What I'm talking about is somebody slapping an 
attendant or pushing an attendant or kicking an attendant or 
relieving themselves in the aisles. These things happen, and 
they happen a lot. And these professional crews with these 
airlines are tired of it. They don't feel support. So they're--
with all these security things happening, that adds to their 
nervousness. We're not going to allow that to continue.
    The Chairman. Well, any other change? We're here to help, 
and that's the purpose of the hearing, and we'll get the staff 
to work with you, Secretary Magaw, immediately. And we could 
put out a bill and have no trouble at all in passing those kind 
of things. Everybody in the country is concerned about 
security. Any other change that you can----
    Mr. Magaw. Well, that when you bypass the security point, 
as Senator Cleland was saying, in most cases that's not a 
Federal offense, and so we want to address that issue, too.
    The Chairman. Alright, sir. We'll do that.
    Senator Hutchison.
    Senator Hutchison. Mr. Chairman, just to follow up on----
    The Chairman. Yes.
    Senator Hutchison [continuing]. Your line of questioning, 
you're saying that we should make it a Federal offense to 
assault a flight attendant or to go through the security 
without clearing a checkpoint. You're saying we should have 
some criminal sanctions so that you have an enforcement 
capability?
    Mr. Magaw. Yes. Now, you do have--there is a kind of a 
catchall that takes any kind of a disturbance on the aircraft, 
but I want to see what the case law on that is, because if the 
case law is fairly wide open, I would like to come back and ask 
you to tighten it up for us.
    We just have to start protecting these crews. They have to 
know that they've got support. When he can put that--when he or 
she can put that aircraft down on the ground very quickly, when 
that door pops open, they want to see law enforcement, and they 
want to see law enforcement that is going to take action. And 
we're going to take in all the constitutional rights, but we 
are going to take action.
    Senator Hutchison. Thank you. I just had one other line of 
questioning, and that is on port security. What steps are you 
taking to secure our ports?
    As I'm sure you know, Houston has the second-largest 
chemical complex in the world, and there are many other 
container issues, as Mr. Mead mentioned. What are you doing to 
take those steps to secure our ports as we are now doing with 
our airports?
    Mr. Magaw. We have $93 million in order to address that 
project. We are in the process now of getting ready to write 
the rules for the grants, issue the grants to the ports. There 
is a Coast Guard captain of every port. The Coast Guard, 
obviously, is part of Transportation, working very closely with 
us. In fact, we want a Coast Guard person in charge of our 
maritime part of my organization. But at any rate, we will go 
into those ports and those--the grants will be to determine 
what the weaknesses are. And there should be some money there 
to start correcting some of those weaknesses--probably not all 
of them.
    Florida--we visited with them the other day. They came to 
see us. They have done all of their deep-water ports. They 
decided to do it with State funds. They've done all their deep-
water ports--survey them and look at them and determine the 
risks. And so it's a case of us continuing to work with them. 
And, of course, now they're concerned about taking a few more 
steps and can we--as part of that $93,000 [sic] going to go to 
Florida or, because they're ahead of the game a little bit, are 
they going to get left out? The answer is no, they're out 
there, they've done part of the work. We're going to help them, 
but not more than we are the other states. So those--you have 
many ports that we're concerned with.
    Senator Hutchison. I know that you know the Senate passed a 
bill unanimously, led by Chairman Hollings, that would require 
every port to put a plan in place for security and then have it 
approved. Obviously it hasn't passed the House at this time, 
but I'm asking--are you going to take steps without the law, 
which you don't need to have, to ask these ports to voluntarily 
start their planning processes to submit to you?
    Mr. Magaw. They're chomping at the bit to do it. They 
understand--these are outstanding citizens in charge of those 
ports and working there, and they recognize the risk, and they 
want to get the funds so that they can start to do this. So we 
want to get it out there as quick as we can.
    Senator Hutchison. Is it fair to say that some of them are 
already--you mentioned Florida--taking steps to secure their 
ports, even before they submit plans? Are there others?
    Mr. Magaw. Yes, there are. I don't know that I could call 
them off very accurately for you, but they--there are.
    Senator Hutchison. Well, I know Houston has certainly taken 
several steps because of their very special situation. But I 
think every one of these ports needs to be encouraged to take 
these steps as the bill works its way through. I don't think 
it's rocket science to know that this is a very big 
vulnerability.
    Mr. Magaw. We've identified 341. And that's what we're--
that's the number we're working with right now. I'm sorry----
    Mr. Jackson. No, that's alright. We very much appreciate, 
Senator, your leadership on this issue and the support that 
your Committee has given to this, and the administration has 
stood behind the legislation that you have offered.
    And, as John said, we're working with them already using 
this $93 million to help jumpstart this, and I would say that 
this is also an example of the type of approach we're trying to 
take with other modes of transportation, as well.
    In the transit arena, for example, we have been sending 
evaluation teams out to some of the large metropolitan transit 
agencies to help them identify security vulnerabilities and to 
map out a process for improving them. We're doing work with 
haulers of hazardous material by truck and--in the same sort of 
mode, going out, using our inspectors to work with them, 
trucking firm by trucking firm, to find vulnerabilities, to 
understand the problems, and to work through those.
    So we are grateful for the port security legislation, and 
we'll work with it, but we were--we're also moving out with the 
tools that we have at our disposal right now.
    Senator Hutchison. Are you including private ports in your 
concept of asking for plans to be submitted? Are they eligible 
for the $93 million funding?
    Mr. Jackson. We haven't yet published the requirements for 
eligibility. I think it is important to triage the 
vulnerability here and all security conversations. It's 
regrettable, but a fact of life, that you have to triage where 
the highest points of vulnerability are. We are certainly 
looking at the large ports to make certain that we have covered 
those. And we know that there is other work that needs to be 
done at smaller ports, even private ports, and we want to try 
to find the appropriate solution for each level.
    Senator Hutchison. Let me just say that, as the Chairman 
asked do we need anything in aviation security, I hope that you 
will come back to us in writing and let us fine-tune the bill. 
We always knew that fine-tuning might be necessary once we got 
into this enormous effort. I would also ask you to do the same 
thing with ports, with rail, highway--if you see holes that you 
can't fill administratively, please come to us and let us come 
back with added components that would be helpful. I think all 
of us want to work together, and we do appreciate your jumping 
in quickly.
    I appreciate the Chairman approving the interim 
confirmation of Mr. Magaw just to get 2 weeks extra to start 
working on this very important project that will affect every 
American that travels on the highways and rails or on our 
waterways or in the air. We thank you for the effort you're 
putting in, and we want to be helpful. Thank you.
    The Chairman. Yeah, the delay on port security, Senator 
Hutchison, is ours in the Congress, particularly on the House 
side. In other words, these ports are chomping at the bit, as 
Secretary Magaw says, but then they don't want to do something 
futile and find that the regulations from Washington are going 
to come out differently than what they plan. And they're asking 
that we please hurry up and get that bill through the House, 
reconcile it, and get it to the President so then the 
Department's got the policy and their plans will conform with 
that particular policy.
    And I've called Chairman Young yesterday, and I'll keep 
calling. We're trying to facilitate it and move it along.
    Senator Rockefeller.
    Senator Rockefeller. Thank you, Mr. Chairman. I want all 
three of you to know, I started out looking for oceans in West 
Virginia and was unable to locate any. When I started looking 
for ports, it became an even more futile task. Having said 
that, however, I fully associate myself with what my two 
colleagues passionately stated, as I do believe it.
    Presumably mine will be the last question. It may not be. 
And this is an oversight hearing. Sometimes at the end of 
oversight hearings members make the mistake of mellowing, 
giving you the wrong impression, or perhaps giving the public 
the wrong impression. But what I want to say--I expect my 
Chairman is little bit nervous right now--is that I think one 
of the reasons that perhaps we've mellowed just a bit in saying 
how can we help you, including a couple of things I wanted to 
say, is that I think you've acquitted yourself very well--and 
I've never said that at an oversight hearing before, and I hope 
not to say it again soon, but I think you have.
    And let me make a couple of points. No. 1, you know, there 
was this terrible ruckus when we passed this bill about 
Federalization and all the rest of it and, you know, it was--
were the Democrats trying to get unions and all of this kind of 
stuff. And it was always irrelevant. And, as I listened to you 
talk, Mr. Magaw, and all of you--Secretary, I should say--all 
we really want are the best people that you can get. And when 
you say that, you know, you're going to take over December 
17th, you're going to take over a private force--well, of 
course you're going to take over a private force. And of course 
you're going to have to spend the time to pick out the best 
people. And, as it just so happens, there are some very good 
people.
    And just to be perfectly honest about it, I've been 
traveling a great deal in my State and others and looking at 
our screeners, and I'm not sure if I--rightly or wrongly, but I 
choose to say that I detect a slight improvement or it might be 
quite an improvement, or it may be I'm picking out individuals 
who seem to be really very good, not just because they keep 
making me take my shoes off every time I go through, which I 
fully appreciate. I haven't had a hip replacement yet, but when 
I do, I'll be prepared to handle that, too.
    In other words, it seems to me they've kind of toughened 
up. Now, that may be because they're trying to get you to 
employ them, but I don't care what the reason is. If they're 
doing a good job, and if they pass the criteria which you set 
for hiring them, then checking out their backgrounds and then 
training them and retraining and constantly training them and 
giving them a goal of being able to go for the sky marshals 
program having higher pay, having benefits, all the rest of it, 
which is the whole point of Federalization, you know, it 
doesn't really make a whole lot of sense for me to spend all of 
my time quibbling about that little comma which said, you know, 
after the 1-year--after the GED or high school education--
unless or if. See, I can do that, or I can say, look, I want 
you to hire the very best people you possibly can.
    And, to be quite honest, if you miss your deadline by a 
week or so, I'm not going to go into orbit. I don't believe we 
put any criminal statutes in that, and I think if we put a 
criminal statute in that which said that you had to have it 
done by that time regardless of the consequences, it would have 
been terrible on our part. What you want are the best 50,000 
people or so, which is the largest Federal agency created since 
the end of the second world war, to be the best possible ones 
you can get.
    So that's my sense of this meeting--and Mr. Mead, I just 
want to assume for the moment that you're going to agree with 
me; you may not--that you're trying to do this in the right 
way. And that's good, I think, and I want to say that, because 
it was too much contentiousness over the fact that if you 
didn't bang them over the head, they wouldn't do anything.
    Now, maybe the reason was they--because they got you, 
Secretary Magaw. You know, I voted for you before you even sat 
down, because of your credentials. But everything you've said 
today has struck me as being on-target. Now, there may have 
been one or two things--and I can't remember them at the 
moment--that weren't, but they struck me as having been 
reasonable, law-enforcement oriented, patient, wanting to do 
the job in the right way, knowing that you can't have 88 things 
on your plate and do them all perfectly and that you'll have to 
come back. But on the other hand, you want to do them all 
perfectly, and I think that's kind of come through.
    So I want to say that, that you need to get the best 
possible people. I don't worry about them being able to handle 
biometrics or interface with intelligence agencies, because 
you're going to train them how to do that and you're not going 
to hire people that you can't train how to do that. And I just 
pray that you have enough people, and I think you will, who 
apply, because the pay is good, the benefits are good, and 
FEHBP has never been criticized by very many people that I know 
of. So I think you're probably going to get a very good work 
force. And I want to say that at this oversight hearing.
    Let me conclude with two small points--one of them not so 
small. We gave you, in the bill, $50 million a year for 5 years 
to do technology research. And in addition, you get $20 million 
a year from DARPA. There are all kinds of ways that that can be 
spent. I would be interested, if you can tell me--this may come 
under your confidentiality rules--some of the ways in which 
you're thinking about technology at this point, because, to me, 
technology is a very large part of airline security.
    Mr. Jackson. Senator, I'll give you a couple of examples of 
how we're going to spend some of that money. And then we'll 
have, in just a short while, a more detailed outline of how 
we're going to use the whole amount. But, for example, one 
thing that we're working on that we consider very promising is 
a second-generation computer-assistance passenger-profiling 
system. It is a more rigorous, a more sophisticated, state-of-
the-art set of tools that will allow us to make sure that when 
we select passengers for additional screening, that we are 
using a very, very robust set of tools to do so--that my 
mother, traveling to the airport, is not going to be selected 
repeatedly for that additional screening, but rather people 
that have a higher probability of being one of the bad guys. So 
that's one area.
    In DARPA, we have--at the request of the secretary of 
Defense, DARPA did a study of airport technologies that could 
be used over, frankly, a little bit longer period of time than 
this first year, but we are in receipt of their report. We're 
going to work with DARPA on some of the recommendations that 
they're making in this area.
    We have a series of teams out at 15 large airports--small 
airports, medium-size airports, 15 total--looking at the 
process of moving people and the technology tools that can be 
mapped against that. It's a--we competed this with some smart 
folks from the outside and some good folks from around the 
government to help on these teams that are going around. So 
we're mapping out allocations of that R&D money. We're looking 
at biometric devices to seal off access to the tarmac. These 
are all things that we're moving.
    And, finally, to sort of queue up some really strong 
technology ideas to look at, we put out a general request 
through our RSPA agency at DOT and received 600 extremely good 
ideas that we have vetted with peer teams, divided them into 
classes of technology opportunities and done drill-downs into 
those. There's some very, very large corporations and some ma-
and-pop folks working out of a garage. We're trying to make 
sure that we don't let any good ideas slip by.
    So that's how we're--that's some of the ways that we're 
using that technology money right now.
    Mr. Magaw. And in our structure, Mr. Chairman, we've worked 
very closely in the structure--at the very top part of that 
structure is a very high-ranking technology-engineer-type 
individual that will be constantly looking way down the road.
    Mr. Jackson. And we have recently hired a new CIO from the 
Department with tremendous skills in this arena to help do some 
of the technology architecture work for John's new agency.
    Senator Rockefeller. Let me just close with this quick 
comment. I'm very happy to serve on the Intelligence Committee. 
And actually some of our very best hearings come when a group 
of about eight computer software executives, technologists, 
extremely brilliant people, who do this and have absolutely 
have no connection with intelligence agencies at all, but do it 
because they love it and because they're patriotic. They've 
been doing it for years. They're exactly the same people. They 
come in, and they will tell us more things in a one- or 2-hour 
session than really anybody else who testifies before us. And 
it's because they are brilliant, because they have the freedom 
to say exactly what they think, and nobody can--not that anyone 
will know what they've said or can do anything about it even if 
they did. And I really like that approach.
    Secretary Jackson, you've just spoken of that approach, the 
people that you have in. But I'm just saying that that--even 
beyond your employees, people from the outside, I mean, they 
can have extraordinary thoughts about what can be done. And, 
you know, how you get a hold of them, I have no idea. If you 
even need to, I don't know. All I know is it really works on 
that very critical Committee.
    Mr. Jackson. Mr. Chairman, we couldn't agree more, and we 
have created a special advisor program to be able to bring 
these type of people into the department and work for a 4- to 
6-month period. We've gotten tremendous--we have a handful now, 
about 8 or 10--that's about all we want right now--but we're 
doing some of this with outside firms. We're bringing some in 
to live side by side with John's folks. They are from Intel, 
Selectron, Disney, FedEx--people who have expertise in an area 
where we need help and when we welcome the help.
    So we have vetted this all through our legal counsel and 
our ethics people. We designed the program in a way that's very 
transparent. We put them at focused tasks. We're finding this 
extremely helpful.
    Senator Rockefeller. Good. Thank you all very much. Thank 
you, Mr. Chairman.
    The Chairman. Now, with respect to the privately-operated 
seaports, as we all know, I think Seattle is private-public 
combined. They're building a private port on the Savannah 
River. They're going through with that. Up there in New York, 
it's Maersk, I think it is, the Danish outfit operates New 
York's ports. And the People's Republic of China is Long 
Beach--Chinese--down home, they'd say the Communist Chinese--
and, yeah, we're going to control that, too. So this seaport 
will apply to all of it.
    With respect to the machines and technology that you were 
talking about, I'm getting the John Dingell treatment. I have 
to take off my shoes--of course, my wife makes sure I don't 
have any holes in my socks anymore, but can't you--that 
Sematech, can't you get a little miniature EDS device that'll--
without taking off the shoes to find out whether you've got 
explosive in the soles there?
    Mr. Magaw. There's a----
    The Chairman. Secretary Magaw.
    Mr. Magaw. There's a couple of technologies----
    The Chairman. Yeah.
    Mr. Magaw [continuing]. That does--that is capable of doing 
that. We're having trouble getting it done at the ground level, 
and I don't know whether we have to just set it a different 
way, but it--there are technologies to do that, and we're 
looking hard at that.
    In the meantime, you know, when you have a person my age 
take their shoes off, we've got to provide chairs and shoehorns 
for them. I can't----
    The Chairman. That's right.
    Mr. Magaw. We've got to make a secure area for their search 
so it's not open on all three sides.
    The Chairman. Yeah. Well, help me on that one thing. Unless 
I'm totally wrong, on how you can veritably stop hijacking. All 
you need to do is have that secured door not opened in flight.
    And, Secretary Jackson, you're talking about the double 
doors. Now, not all the El Al planes--but in the meantime, if 
someone gets ill--you all make me sound crude to get to the 
point, but I mean you've got a burp bag, or specifically you go 
to the doctor and, whether your wife or yourself gets a 
urinalysis, they give you a little container--give you a bowl 
jar. Come one.
    We're trying our dead level best to put a sign that you can 
go to jail, but you cannot hijack any of these flights. You can 
put that in every major airport in America by just taking care 
of the situation, like they have in Israel where they haven't 
had a hijacking in 30 years. And we can't wait on double doors 
or the war will be over. There's no reason not to do that.
    I know in a little private plane, they've got a facility--a 
little tube--to go. So let's don't play around with something 
and wait on double doors and the convenience of the pilot and 
everything else. It's the convenience and safety and security 
of that pilot and the traveling public.
    And I'd like to see a sign, not only in English, but in 
Arabic, ``You can go to jail, but you cannot hijack,'' in every 
airport. And that means they're coming right down to the 
ground, Secretary Magaw, and they're going right to jail. And 
that's the rule, so they all understand that. That ends the 
hijacking. That ends the threat to power plants--nuclear power 
plants.
    If--now, a little private plane--you know, you can't 
control all of those, so if the nuclear power plant can't 
withstand a little private flight running into it, then they 
ought to close it down this afternoon.
    It stops all of this saying, ``Nobody get out of their seat 
in the next 30 minutes because we're about to land.'' You all 
go around your elbow to cause more problems, when it's easily 
solved. No more hijacking. You can go to jail. That door 
doesn't open in flight. Please help us on that.
    Is there anything further? Thank you all very, very much 
for your appearance here today. The Committee will be in 
recess, subject to the call of the chair.
    [Whereupon, the Committee adjourned.]
  

                                  <all>

</pre></body></html>
